<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                       WEDNESDAY, JUNE 14, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:32 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Shelby, Alexander, Collins, 
Murkowski, Graham, Blunt, Daines, Moran, Durbin, Leahy, 
Feinstein, Murray, Reed, Tester, Udall, Schatz, and Baldwin.

                   DEPARTMENT OF DEFENSE

          Office of the Secretary of Defense

STATEMENT OF HON. JAMES N. MATTIS, SECRETARY
ACCOMPANIED BY DAVID NORQUIST, UNDER SECRETARY OF DEFENSE (COMPTROLLER)


               opening statement of senator thad cochran


    Senator Cochran. The committee will please come to order.
    This morning, I want to begin by acknowledging the sad 
incident in Alexandria, Virginia, and to commend the service of 
the U.S. Capitol Police. Our thoughts are with those who were 
injured, and hope for their speedy, full recovery.
    Today, we are here to receive the testimony for the budget 
request submitted by the Department of Defense to Congress for 
the next fiscal year.
    We are pleased to have with us today the Honorable James N. 
Mattis, Secretary of Defense, General Joseph F. Dunford, Jr., 
Chairman of the Joint Chiefs of Staff. We are very pleased with 
their attendance and for providing us with our needs for 
reviewing the budget request.
    We are pleased to have Secretary Mattis and Chairman 
Dunford here for their second appearance before the 
subcommittee this year. We thank you for your distinguished 
service and your commitment to the defense of our Nation. We 
thank you for your commitment to the safety and security of our 
Nation.
    We look forward to receiving and considering the budget 
request formally from the Department of Defense, for our 
distinguished group of staff members who help us review this 
and do the work under this subcommittee's jurisdiction and our 
full committee's jurisdiction.
    [The statement follows:]
                   Prepared Statement of Thad Cochran
    The subcommittee will please come to order. I want to begin today 
by acknowledging the sad incident this morning in Alexandria, Virginia, 
and to commend the service of the U.S. Capitol Police. Our thoughts are 
with those who were injured, and hope for their speedy and full 
recovery.
    Today we will receive testimony for the budget request submitted by 
the Department of Defense to Congress for the 2018 fiscal year. We are 
pleased to have with us today the Honorable James N. Mattis, Secretary 
of Defense, and General Joseph F. Dunford, Jr., Chairman of the Joint 
Chiefs of Staff.
    We are very pleased with their attendance and for providing us with 
our needs to review the budget request. This is their second appearance 
before the subcommittee this year. We thank you for your distinguished 
service and your commitment to the defense and security of our Nation.
    We look forward to hearing more about the budget request for the 
Department of Defense. The committee needs to respond to this request 
in a responsible way to ensure the military is prepared to meet current 
and future threats.

    Senator Cochran. So we are pleased to begin our review of 
the request by hearing directly from the Vice Chairman. Vice 
Chairman Durbin, the Senator from Illinois, is not with us yet. 
We will give Senator Leahy the honor of making whatever remarks 
that he would like at this opening statement time.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you, Mr. Chairman.
    I will put my full remarks in the record, but I know that 
it is important that Secretary Mattis and General Dunford are 
here. They are both men of integrity. I have known them for 
years. We will benefit from their expertise and candor.
    Also, I realize we cannot maintain the strongest military 
at the expense of our domestic priorities. It is not an either/
or thing, because it makes us neither safe, nor strong, nor 
great. Our national security is not limited to just the 
activities of the Department of Defense.
    Secretary Mattis, you said, historically, nations that did 
not keep their fiscal house in order, their economy strong, 
lose their military power. We have to decide how to do that. I 
agree with your conclusion.
    But I do not think that we can set up a budget that says it 
is either/or. We have to look at both. We talk about parity for 
defense and nondefense spending. They are intrinsically linked. 
We cannot be both militarily strong but economically weak.
    So I will work with the Chairman in my capacity as Vice 
Chairman to see what we can do to have bills that do that.
    I just state, as a personal note, I do not want to 
embarrass General Dunford, but, in Vermont, we were very 
pleased to have the General come to St. Michael's College where 
he got his undergraduate degree before he got his graduate 
degree at Georgetown. He was the graduation speaker. I was 
there, even though I think I graduated decades before he was 
born.
    But the welcoming, Mr. Secretary, the welcoming that you 
saw for General Dunford from all across the political spectrum, 
military, non-military alike, was tremendous. It made the 
Marines proud. It made the Department of Defense proud.
    Thank you, Mr. Chairman.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    Thank you, Chairman Cochran and Ranking Member Durbin, for the 
opportunity to make these brief remarks. Welcome to Secretary Mattis 
and General Dunford. This Committee benefits from your expertise and 
your candor.
    It has been almost 3 months since you last testified before this 
Committee, and there has been no shortage of world events in that short 
time. American missiles have targeted and struck Syrian forces. A 
massive ransomware cyberattack spread around the globe. North Korea has 
tested new missiles. The United States withdrew from the Paris Climate 
Accords joining just Syria and Nicaragua as the only nations not 
joining the international community to combat a global threat. And mind 
you Nicaragua stayed out of the agreement because it didn't think those 
accords went far enough. These are just a few of the biggest recent 
headlines.
    In this chaotic world, this President--with his minimal experience 
in government, foreign affairs and defense policy--adds to that chaos. 
I know that you both provide steady voices as we debate our military 
policy and spending priorities. But as we have discussed previously, I 
know that you both share my belief that we cannot maintain the 
strongest military at the expense of our domestic priorities. This 
makes us neither safe, nor strong, nor great. And our national security 
is not limited to the activities of the Department of Defense. 
Secretary Mattis, you have testified before Congress that ``If you [the 
Congress] don't fund the State Department fully, then I need to buy 
more ammunition.'' Yet, the President proposes to cut foreign 
assistance by 30 percent.
    Secretary Mattis, the President's budget proposal may provide money 
for more bullets, but it fails in every other regard. It cuts housing 
assistance for low income and disabled Americans. It cuts support for 
State and local law enforcement. It underfunds our anti-opioid and 
anti-heroin efforts. It cuts rural development programs that create 
jobs and support our local economies. It eliminates the Small Business 
Administration--small businesses are the backbone of our economy. It 
cuts critical programs that will protect our environment for 
generations to come. How is the Trump budget a ``foundation for 
greatness?''
    Secretary Mattis, you have said that historically ``nations that 
didn't keep their fiscal house in order, their economies strong, lost 
their military power.'' In Congress, we have varied opinions about how 
we do that. But the budget President Trump has proposed is a false 
choice between maintaining our military might and protecting essential 
domestic priorities.
    We talk about ``parity'' for defense and non-defense spending. 
These are intrinsically linked. We cannot be militarily strong while 
economically weak. You both know that. I know that. I suspect most if 
not all of the members of this panel know that. I am committed to 
drafting appropriations bills that reflect that. I challenge both of 
you to join in that effort. Thank you.

    Senator Cochran. Thank you, Senator.
    I now recognize the distinguished Senator from Illinois, 
Senator Durbin.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Mr. Chairman, first, let me apologize. It 
turns out, it is all Chuck Grassley's fault. The Senate 
Judiciary Committee had a hearing that began on nominations 
this morning. I am sorry that I am a few minutes late.
    I mean no disrespect to you, Mr. Secretary, General, or the 
guests in our audience.
    I would ask that my opening statement be made part of the 
record.
    Senator Cochran. Without objection, your statement will be 
reported in the record.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Mr. Chairman, I am pleased to join you in welcoming the Secretary 
of Defense, the Honorable James Mattis, and the Chairman of the Joint 
Chiefs of Staff, General Joseph Dunford, to our hearing to review the 
Department of Defense's budget request for fiscal year 2018.
                            budget increases
    Secretary Mattis, we have spoken several times about the problem 
that sequestration poses for our armed forces. You have made improving 
readiness your top priority, and it is clear that would be in jeopardy 
if the Department is hit with another sequester.
    As of today, there are no ongoing negotiations to change the Budget 
Control Act's strict spending caps. It appears that this Congress is 
likely to do one of two things: provide more funding for the Defense 
Department through a massive OCO gimmick, or simply kick the can down 
the road for several months and hope that we stumble onto a solution 
for sequestration, perhaps even by accident.
    This is no way for the greatest nation on earth to run the world's 
most powerful military.
                         crs and regular order
    Secretary Mattis, your written testimony clearly lays out the 
pernicious effects of relying on months-long continuing resolutions as 
a matter of practice.
    I completely agree with you. Setting Federal agencies on a 
budgetary autopilot--whether we are talking about our armed forces, law 
enforcement, scientific research, or any other program--is destructive 
and the practice needs to end.
    In many cases, these long CRs were completely avoidable. Last fall, 
Chairman Cochran and I, working with our House counterparts, were 98 
percent finished with negotiating the defense bill for fiscal year 
2017.
    On November 16, the House Leadership, at the behest of the Trump 
transition team, cancelled all budget talks and endorsed another long, 
senseless CR.
    Between November 16 and May 5, the only change to the defense bill 
was the addition of $15 billion in response to your readiness request.
    I will never know why the Trump team decided it was better to waste 
6 months without a budget deal. But I ask that you deliver the same 
message to the Administration as you are delivering to Congress: no 
shutdowns, no CRs, and no more games. Let us get moving on a truly 
bipartisan budget deal and get our work back on track.
                              efficiencies
    I would add, Mr. Secretary, that we all must recommit ourselves to 
the interests of the American taxpayer.
    The Nation needs to know that our comparatively high levels defense 
spending is making a difference to our national security, instead of 
simply lining someone else's pockets.
    A recently released Inspector General's report finds that we have 
lost track of $1 billion in equipment given to the Iraqi security 
forces.
    After many years of asking, it is still the case that nobody is 
really trying to get a handle on the proliferation of contractors, 
which cost 2-3 times more than civilian personnel according to DoD.
    And finally, the most recent cost estimate for all $1.6 trillion in 
planned spending for major weapons programs shows $193 billion, or 
eight percent, in cost increases.
    Secretary Mattis, we need to get a handle on cutting waste out of 
the defense budget, and this Committee needs your help to do it. 
Fortunately, I believe you may be the right person in the right place 
to help us achieve this.
                               conclusion
    Mr. Chairman, we have another challenging year ahead of us, but I 
look forward to working with you to do the best we can for the 
incredible women and men who are serving in the armed forces.

    Senator Cochran. You may proceed.

               SUMMARY STATEMENT OF HON. JAMES N. MATTIS

    Secretary Mattis. Chairman Cochran, Ranking Member Durbin, 
and members of the committee, I appreciate this opportunity to 
testify in support of the President's budget request for fiscal 
year 2018.
    And thank you, Mr. Chairman, for accepting my written 
statement for the record.
    I am joined today, of course, by Chairman Dunford, the 
Chairman of our Joint Chiefs of Staff.
    I also have, Chairman and Ranking Member, the Under 
Secretary of Defense Comptroller, David Norquist, recently 
confirmed by the Senate and sworn in. Should we need more 
detailed answers, your staff has been kind enough to set up a 
seat for him. We can call him forward, if you so choose, 
Chairman.
    This budget request holds me accountable to the men and 
women of the Department of Defense. Every day, more than 2 
million servicemembers and nearly 1 million civilians do their 
duty, honoring previous generations of veterans and civil 
servants who have sacrificed for our country. It is my 
privilege to serve alongside them.
    We in the department are keenly aware of the sacrifices 
made by the American people to fund our military. Many times in 
the past, we have looked reality in the eye, met challenges 
with the help of congressional leadership, and built the most 
capable warfighting force in the world.
    There is no room for complacency in the Department of 
Defense, and we have no God-given right to victory on the 
battlefield. Each generation of Americans, from the halls of 
Congress to the battlefields, earns victory through commitment 
and sacrifice.
    And yet, for 4 years, the department has been subjected to 
or threatened by automatic, across-the-board cuts as a result 
of sequester, a mechanism meant to be so injurious to the 
military it would never go into effect. But it did go into 
effect, and as forecast by then-Secretary of Defense Panetta, 
the damage has been severe.
    In addition, during 9 of the past 10 years, Congress has 
enacted 30 separate continuing resolutions to fund the 
Department of Defense, thus inhibiting our readiness and 
adaptation to new challenges.
    We need bipartisan support for this request. In the past, 
by failing to pass a budget on time or to eliminate the threat 
of sequestration, Congress sidelined itself from its active 
constitutional oversight role. Continuing resolutions coupled 
with sequestration blocked new programs, prevented service 
growth, stalled industry initiative, and placed troops at 
greater risk.
    Despite the tremendous efforts of this committee, Congress, 
as a whole, has met the present challenge with lassitude, not 
leadership.
    I retired from military service 3 months after 
sequestration took effect. Four years later, I have returned to 
the department, and I have been shocked by what I have seen 
about our readiness to fight. While nothing can compare to the 
heartache caused by the loss of our troops during these wars, 
no enemy in the field has done more to harm the combat 
readiness of our military than sequestration.
    We have only sustained our ability to meet America's 
commitments for our security because our troops have stoically 
shouldered a much greater burden. But our troops' stoic 
commitment cannot reduce the growing risk.
    It took us years to get into this situation. It will 
require years of stable budgets and increased funding to get us 
out of it.
    I urge members of this committee and Congress to achieve 
three goals. First, fully fund our request, which requires an 
increase to the Defense budget caps. Second, pass a fiscal year 
2018 budget in a timely manner to avoid yet another harmful 
continuing resolution. And, third, eliminate the threat of 
future sequestration cuts to provide a stable budgetary 
planning horizon.
    Stable budgets and increased funding are necessary because 
of four external factors acting on the department at the same 
time.
    The first force acting on us that we must recognize is 16 
years of war. When Congress approved the all-volunteer force in 
1973, our country never envisioned sending our military to war 
for more than a decade without pause or conscription. America's 
long war has placed a heavy burden on men and women in uniform 
and their families.
    Here I will note a few points on Afghanistan, recognizing 
our military posture there is part of a larger regional context 
in South Asia. Our primary national interest and the 
international interest in Afghanistan is ensuring it does not 
become an ungoverned space from which attacks can be launched 
against the United States, other nations, or the Afghan people. 
In this regard, our forces are conducting partnered 
counterterrorism operations, and we are supporting the NATO-led 
Resolute Support mission, so, in the future, the Afghan people 
can defend themselves.
    At noon yesterday, President Trump delegated to me the 
authority to manage troop numbers in Afghanistan. The 
delegation of this authority, consistent with the authority 
President Trump granted me 2 months ago for Iraq and Syria, 
does not, at this time, change the troop numbers for 
Afghanistan.
    Together in the interagency, we will define the way ahead, 
and I will set the U.S. military commitment consistent with the 
Commander in Chief's strategic direction and his foreign 
policy, as dictated by Secretary of State Tillerson.
    This ensures the department can facilitate our missions and 
nimbly align our commitment to the situation on the ground. Our 
overall mission in Afghanistan remains the same, to train, 
advise, and assist the Afghan forces so they can safeguard the 
Afghan people and terrorists can find no haven in Afghanistan 
for attacking us or others.
    The revised Afghanistan strategy with the new approach will 
be presented to the President for his approval in the coming 
weeks.
    A second concurrent force acting on the department is the 
worsening global security situation, and here we must look 
reality in the eye. Russia and China are seeking veto power 
over the economic, diplomatic, and security decisions of 
nations on their periphery. North Korea's reckless rhetoric and 
provocative actions continue, despite United Nations censure 
and sanctions, while Iran remains the largest long-term 
challenge to Mideast stability. All the while, terrorist groups 
murder the innocent and threaten peace in many regions while 
targeting us.
    A third force we have to deal with is adversaries actively 
contesting America's capabilities. For decades, the United 
States enjoyed uncontested or dominant superiority in every 
operating domain or realm. We could generally deploy our forces 
when we wanted, assemble them where we wanted, and operate how 
we wanted. Today, every operating domain--outer space, air, 
sea, undersea, land, and cyberspace--is contested.
    A fourth concurrent force is the rapid technological 
change. And among the other forces noted thus far, 
technological change is one that necessitates new investment, 
innovative approaches, and new program starts that have been 
denied us by law when we have been forced to operate under 
continuing resolutions.
    Each of these four forces--16 years of war, the worsening 
security environment, contested operations in multiple domains, 
and the rapid pace of technological change--require stable 
budgets and increased funding to provide for the protection of 
our citizens and for the survival of our freedoms.
    I reiterate that security and solvency are my watchwords as 
Secretary of Defense. The fundamental responsibility of our 
government is to defend the American people providing for our 
security, and we cannot defend America and help others if our 
Nation is not both strong and solvent.
    So we in the Department of Defense owe it to the American 
public and the Congress to ensure we spend each dollar wisely. 
President Trump has nominated for Senate approval specific 
individuals who will bring proven skills to discipline our 
department's fiscal processes and to ensure we do so.
    The first step to restoring readiness is underway thanks to 
Congress' willingness to support the administration's request 
for an additional $21 billion in resources for fiscal year 2017 
to address vital warfighting readiness shortfalls. Your support 
has put more aircraft in the air, more ships to sea, and more 
troops in the field. However, we all recognize that it will 
take a number of years of higher funding delivered on time to 
restore readiness.
    To strengthen the military, President Trump requested a 
$639 billion topline for the fiscal year 2018 defense budget. 
That budget reflects five priorities.
    Our first priority is continuing to improve warfighter 
readiness begun in 2017, filling in the holes from tradeoffs 
made during 16 years of war, 9 years of continuing resolutions, 
and Budget Control Act caps.
    The second priority is increasing capacity and lethality 
while preparing for future investment driven by the results 
from the National Defense Strategy we are working on now. Our 
fiscal year 2018 budget request ensures the Nation's current 
nuclear deterrent will be sustained and supports continuation 
of its much-needed modernization process.
    The third priority is reforming how the department does 
business. I am devoted to gaining full value from every 
taxpayer dollar spent on defense, thereby earning the trust of 
Congress and the American people. We have begun implementation 
of a range of reform initiatives directed by the 2017 National 
Defense Authorization Act, and we are on track to enter into a 
full agency-wide financial statement audit, as required by 
statute.
    I urge Congress to support the department's request for 
authority to conduct a 2021 base realignment and closure, or 
BRAC, round. I recognize the careful deliberation that members 
must exercise in considering this, but BRAC has proven to be 
one of the most successful and significant efficiency programs 
we have. We forecast that a properly focused base closure 
effort could generate $2 billion or more annually, and over a 
5-year period, that savings would be enough to buy 300 Apache 
attack helicopters or 120 F-18s or four Virginia class 
submarines.
    The fourth priority in the fiscal year 2018 budget request 
is keeping faith with servicemembers and their families. 
Talented people remain the department's most valuable asset, 
but we must continually balance these requirements of investing 
in our people against other investments critical to readiness, 
equipment, and modernization to ensure the military is the most 
capable warfighting force in the world. Investment in military 
compensation, blended retirement, the military health system, 
and family programs are essential to fielding the talent we 
need to sustain our competitive advantage on the battlefield.
    Our fifth priority is support for Overseas Contingency 
Operations. The fiscal year 2018 President's budget requests 
$64.6 billion focusing on operations in Afghanistan, Iraq, and 
Syria; increasing efforts to sustain NATO's (North Atlantic 
Treaty Organization) defenses to deter aggression; and global 
counterterrorism operations. ISIS (Islamic State of Iraq and 
Syria) and other terrorist organizations represent a clear and 
present danger, and I am also encouraged by the willingness of 
our allies and partners to share the burden of this campaign 
alongside us.
    Moving forward, the fiscal year 2019 budget will be 
informed by the National Defense Strategy. It will have to make 
hard choices as we shape the 2019 to 2023 defense program. The 
department will work with President Trump, Congress, and this 
committee to ensure future budget requests are sustainable and 
provide the Commander in Chief with viable military options 
that support America's security.
    In summation, first, I need the BCA caps lifted and a 
budget, not a continuing resolution, passed on time, and 
elimination of future sequestration cuts, so we can provide 
that stable and adequate way ahead that is needed for the 
budget.
    For those who are concerned we are not asking for 
sufficient dollars, please consider the following. For 2017, as 
a supplemental, we asked for $30 billion and the Congress 
provided $21 billion for our administration to address 
readiness shortfalls.
    Second, this fiscal year, President Trump has requested 
$574 billion plus $29 billion in the Department of Energy 
budget, plus $65 billion for Overseas Contingency Operations. 
This is a 5 percent growth over what national defense has 
funded for 2017.
    This request is $52 billion above the Budget Control Act 
defense caps. We have underway at this time a National Security 
Strategy review that will give us the analytic rigor to come 
back to you for the fiscal year 2019 to 2023 budget request 
when we will build up our military to confront the situation 
that the chairman and I have laid out in our written 
statements.
    I am keenly aware that each of you understand the 
responsibility we share to ensure our military is ready to 
fight today and in the future. I need your help to inform your 
fellow Members of Congress about the reality facing our 
military and the need for Congress as a whole to pass a defense 
budget on time.
    Specifically, I want to thank the members of this committee 
for your strong support over many years, through good times and 
bad, and for ensuring our troops have the resources and 
equipment they need to fight and win on the battlefield. I 
pledge to collaborate closely with you for the defense of our 
Nation in our joint effort to keep our Armed Forces second to 
none.
    Thank you, ladies and gentlemen. And Chairman Dunford is 
prepared to discuss the military dimensions of our budget 
request.
    [The statement follows:]
               Prepared Statement of Hon. James N. Mattis
    Chairman Cochran, Ranking Member Durbin, distinguished members of 
the committee, I appreciate the opportunity to testify in support of 
the President's budget request for fiscal year 2018.
    I am pleased to be joined by Chairman Dunford.
    This budget request holds me accountable to the men and women of 
the Department of Defense. Every day, more than two million Service 
members and nearly one million civilians do their duty, honoring 
previous generations of veterans and civil servants who have sacrificed 
for our country. I am mindful of the privilege it is to serve alongside 
them.
    We in the Department of Defense are keenly aware of the sacrifices 
made by the American people to fund our military. Many times in the 
past we have looked reality in the eye, met challenges with 
Congressional leadership, and built the most capable warfighting force 
in the world. There is no room for complacency and we have no God-given 
right to victory on the battlefield. Each generation of Americans, from 
the halls of Congress to the battlefields, earn victory through 
commitment and sacrifice.
    And yet, for 4 years our military has been subject to or threatened 
by automatic, across-the-board cuts as a result of sequester--a 
mechanism meant to be so injurious to the military it would never go 
into effect. In addition, during nine of the past 10 years, Congress 
has enacted 30 separate Continuing Resolutions to fund the Department 
of Defense, thus inhibiting our readiness and adaptation to new 
challenges.
    I need bipartisan support for this budget request. In the past, by 
failing to pass a budget on time or eliminate the threat of 
sequestration, Congress sidelined itself from its active Constitutional 
oversight role. It has blocked new programs, prevented service growth, 
stalled industry initiative, and placed troops at greater risk. Despite 
the tremendous efforts of this committee, Congress as a whole has met 
the present challenge with lassitude, not leadership.
    For much of the past decade, my predecessors and prior members of 
the Joint Chiefs of Staff testified that sequestration and the 
continued use of Continuing Resolutions would result in a steady 
erosion of military readiness. In 2013, then-Secretary of Defense Leon 
Panetta, former Chairman of the House Budget Committee and the former 
Director of the Office of Management and Budget, testified sequester 
was ``guaranteed to hollow out the force.''
    I retired from military service 3 months after sequestration took 
effect. Four years later, I returned to the Department and I have been 
shocked by what I've seen with our readiness to fight. For all the 
heartache caused by the loss of our troops during these wars, no enemy 
in the field has done more to harm the readiness of our military than 
sequestration. We have only sustained our ability to meet America's 
commitments abroad because our troops have stoically shouldered a much 
greater burden.
    It took us years to get into this situation. It will require years 
of stable budgets and increased funding to get out of it. I urge 
members of this committee and Congress to achieve three goals:
  --First, fully fund our request, which requires an increase to the 
        Defense budget caps;
  --Second, pass a fiscal year 2018 budget in a timely manner to avoid 
        yet another harmful Continuing Resolution; and
  --Third, eliminate the threat of future sequestration cuts to provide 
        a stable budgetary planning horizon.
    Stable budgets and increased funding are necessary because of four 
external forces acting on the Department at the same time.
    The first force we must recognize is 16 years of war. This period 
represents the longest continuous stretch of armed conflict in our 
Nation's history. In more than a quarter century since the end of the 
Cold War, our country has deployed large-scale forces in active 
operations for more months than we have been at peace.
    When Congress approved the All-Volunteer Force in 1973, our country 
never envisioned sending our military to war for more than a decade 
without pause or conscription. America's long war has placed a heavy 
burden on men and women in uniform and their families.
    In recognition of these demands, Congress devoted more resources to 
recruiting and retaining members of the military. As a result, 
personnel costs as a fraction of the defense budget have risen over 
time.
    Meanwhile, the war has exhausted our equipment faster than planned. 
Congress and the Department could not anticipate the accumulated wear 
and tear of years of continuous combat use. We have had to procure 
replacement gear and spend more money to keep gear serviceable and 
extend its service life. Due to this extensive use of our equipment 
across the force, operations and maintenance costs have also increased, 
rising faster than the rate of inflation during the past 16 years.
    Worn equipment and constrained supplies have forced our personnel 
to work overtime while deployed or preparing to deploy. That too has 
placed an added burden on the men and women who serve and on their 
families. This further degrades readiness in a negative spiral, for 
those not in the fight are at a standstill, unable to train as their 
equipment is sent forward to cover shortfalls or returned for extensive 
rework.
    My predecessor, Secretary Gates, stated annualized real defense 
budget increases and efficiencies of two to 3 percent above inflation 
are needed to sustain the All-Volunteer Force in a way that keeps 
personnel, modernization, and readiness accounts in balance. In the 6 
years since the passage of the Budget Control Act, a period of 
declining, flat, or modestly increasing budgets, we have not kept this 
balance.
    Not long ago we convinced ourselves that when we pulled out of Iraq 
and ceased combat operations in Afghanistan, we would take 2 or 3 years 
to ``reset and reconstitute'' the force. Today's operations dictate the 
best we can do is ``reset and reconstitute in stride,'' a reality that 
imposes its own stress on the Force.
    A second concurrent force acting on the Department is the worsening 
global security situation. Our challenge is characterized by a decline 
in the long-standing rules-based international order, bringing with it 
a more volatile security environment than any I have experienced during 
my four decades of military service.
    The most urgent and dangerous threat to peace and security is North 
Korea. North Korea's continued pursuit of nuclear weapons and the means 
to deliver them has increased in pace and scope. The regime's nuclear 
weapons program is a clear and present danger to all, and the regime's 
provocative actions, manifestly illegal under international law, have 
not abated despite United Nations' censure and sanctions.
    We also look on the prospect of a new era, one governed by today's 
economic realities and returning once again to a balance of powers. A 
return to Great Power competition, marked by a resurgent and more 
aggressive Russian Federation and a rising, more confident, and 
assertive China, places the international order under assault. Both 
Russia and China object to key aspects of the international order so 
painstakingly built since the end of World War II. Both countries are 
making their objections known by challenging established international 
norms, such as freedom of the seas and the sovereignty of nations on 
their periphery.
    Moreover, the breakdown of the broader Mideast order has given rise 
to terrorist groups, including Al-Qaeda and the Islamic State of Iraq 
and Syria (ISIS). Security vacuums have allowed a revolutionary Iranian 
regime to sow violence, provoke wider Sunni-Shia confrontation, and 
pursue regional hegemony. More broadly, this need to preserve our 
security also requires us to sustain the international presence in 
Afghanistan to help stabilize the South Asia region and deny terrorists 
a safe haven.
    Instability in the Middle East spills over into other regions. 
Extremists and extremist ideologies have spread to Europe, Africa, and 
Asia. Numerous countries are dealing with forced migration of people 
seeking to escape violence and despair, reminding us that problems 
originating in ungoverned or combat torn areas don't remain there. The 
United States is engaged in the Middle East to help restore order and 
give the people who live there a more hopeful future, building a better 
security situation for Americans who want a safer and more prosperous 
world for our future.
    As one observer of the world has noted, we are ``faced with two 
problems: first, how to reduce regional chaos; second, how to create a 
coherent world order based on agreed-upon principles that are necessary 
for the operation of the entire system.'' That observer, Dr. Henry 
Kissinger, and his fellow members of the Greatest Generation witnessed 
first-hand the costs of military unpreparedness. They learned the 
paramount need to prevent hostile states from gaining dominance. And 
they understood that while there is no way to guarantee peace, the 
surest way to prevent war is to be prepared to win one.
    Under any circumstances, however, reducing regional chaos in tandem 
with our interagency partners and international allies to help foster a 
coherent order requires adequate diplomatic and military resources.
    Adversaries contesting the United States constitute a third force 
impacting the Department. For decades the United States enjoyed 
uncontested or dominant superiority in every operating domain or realm. 
We could generally deploy our forces when we wanted, assemble them 
where we wanted, and operate how we wanted. Today, every operating 
domain is contested.
    Outer space, long considered a sanctuary, is now contested. This 
creates the need to develop capabilities and capacities for more 
resilient satellites designed to withstand persistent kinetic and non-
kinetic attack.
    Our dominance of the air is challenged by the proliferation of 
advanced integrated air defense networks and 5th-generation aircraft. 
The F-35 Joint Strike Fighter program, longer range weapons, and 
unmanned systems will help us impose our will on potential adversaries 
while preserving our aircraft and crews in combat.
    Our command of the seas is threatened by long-range, land-based 
guided munitions battle networks designed to attack our ships at 
increasingly longer ranges. Our undersea superiority, unquestioned 
since the end of the Cold War, and a key competitive advantage, is 
challenged by both Russia and China.
    Our dominance on land in conventional, high-end combined arms 
maneuver is threatened by the introduction of long-range air-to-surface 
and surface-to-surface guided weapons, advanced armored vehicles and 
anti-tank weapons, and tactical electronic warfare systems.
    Cyberspace is now a contested operating realm at the strategic, 
operational, and tactical levels of war.
    Finally, our air, naval, ground and logistics bases are all under 
threat of accurate, all-weather, day-night guided munitions 
bombardment. This will complicate our operations and make passive and 
active base defenses more necessary and urgent.
    A fourth concurrent force acting on the Department is rapid 
technological change. Among the other forces noted thus far, 
technological change is one that necessitates new investment, 
innovative approaches, and when necessary, new program starts that have 
been denied us by law when we have been forced to operate under 
Continuing Resolutions.
    Rapid technological change includes developments in advanced 
computing, big data analytics, artificial intelligence, autonomy, 
robotics, miniaturization, additive manufacturing, meta-materials, 
directed energy, and hypersonics--the very technologies that ensure we 
will be able to fight and win the wars of the future.
    Many of these advances are driven by commercial sector demands and 
research and development. New commercial technologies will change 
society, and ultimately, they will change the character of war. The 
fact that many of these technological developments will come from the 
commercial sector means that state competitors and non-state actors 
will also have access to them, a fact that will continue to erode the 
conventional overmatch our Nation has grown so accustomed to.
    In this competitive environment, the Department must pay much more 
attention to future readiness, and regaining our Joint Force 
conventional overmatch over time. We must be willing and able to tap 
into commercial research, recognize its military potential, and develop 
new capabilities and the operational and organizational constructs to 
employ them faster than our competitors.
    We must also be prepared to deal with technological, operational, 
and tactical surprise, which requires changes to the way we train and 
educate our leaders and our forces, and how we organize for improved 
Departmental agility.
    Improving our future readiness, rapid adoption of off the shelf 
technologies, and preparing to deal with surprise are critical to 
modernization efforts, but constrained budgets and acquisition 
regulations have limited our ability to keep pace with rapid changes 
and sustain our competitive advantage.
    In response to these realities, the Department must develop new 
weapons and capabilities, adjust concepts of operations, adapt our 
training, and spend more time war-gaming and exercising to improve our 
ability to fight and win.
    Each of these four forces--16 years of war, the worsening security 
environment, contested operations in multiple domains, and the rapid 
pace of technological change--require stable budgets and increased 
funding to provide for the protection of our citizens and for the 
survival of our freedoms. Because as expensive as it is for the 
American people to fund the military, it is far less costly in lives 
and treasure than a conventional war that we are unable to deter 
because we are seen as weak.
    I reiterate that security and solvency are my watchwords as 
Secretary of Defense. The fundamental responsibility of our government 
is to defend the American people, providing for our security--and we 
cannot defend America and help others if our Nation is not both strong 
and solvent. So we in the Department of Defense owe it to the American 
public to ensure we spend each dollar wisely. President Trump has 
nominated for Senate approval specific individuals who will bring 
proven skills to discipline our Department's fiscal processes to ensure 
we do so.
    This first step to restoring readiness is underway thanks to 
Congress' willingness to support the Administration's request for 
additional resources in fiscal year 2017 to rebuild our most urgent 
needs. Your support of $21 billion in additional resources allowed the 
Department to address immediate warfighting readiness shortfalls and to 
help fund the acceleration of the fight against ISIS.
    This additional fiscal year 2017 funding addresses vital 
warfighting readiness shortfalls, a necessary investment to ensure our 
military is ready to fight today, by putting more aircraft in the air, 
ships to sea, and troops in the field. Additionally, the funding 
provided for more maintenance, spare parts, training time, flying 
hours, munition stocks, and manpower.
    We all recognize that it will take a number of years of higher 
funding delivered on time to restore readiness. To strengthen the 
military, President Trump requested a $639.1 billion topline for the 
fiscal year 2018 defense budget. Of this topline, $574.5 billion 
supports Department of Defense base budget requirements--warfighting 
readiness and critical program requirements, including intelligence 
community requirements. The balance, $64.6 billion, supports Overseas 
Contingency Operations (OCO) requirements.
    The Department's fiscal year 2018 base budget with its $52 billion 
increase above the National Defense Budget Control Act cap is the next 
step to building a larger, more capable, and more lethal joint force. 
The fiscal year 2018 budget reflects five priorities: restoring and 
improving warfighter readiness, increasing capacity and lethality, 
reforming how the Department does business, keeping the faith with 
Service members and their families, and supporting Overseas Contingency 
Operations.
    The first priority is continuing to improve warfighter readiness 
begun in fiscal year 2017, filling in the holes from trade-offs made 
during 16 years of war, and 6 years of continuing resolutions and 
Budget Control Act caps. This budget request, as directed by the 
National Security Presidential Memorandum ``Rebuilding the U.S. Armed 
Forces'' issued on January 27, 2017, identifies and improves shortfalls 
in readiness, specifically in training, equipment, maintenance, 
munitions, modernization, and infrastructure.
    The 30-Day Readiness Review, completed as part of the development 
of the fiscal year 2017 Request for Additional Appropriations, 
identified significant challenges to recovering readiness, including 
budget uncertainty, high operational tempo, and the time required to 
rebuild readiness properly. As a result of this review, the Department 
submitted the fiscal year 2018 budget request to enable the Joint Force 
to counter national security threats, fulfill steady-state demand, and 
implement readiness recovery plans.
    The Army remains globally engaged with more than 180,000 Soldiers 
committed to combatant command deterrence and counterterrorism 
operations. The fiscal year 2018 budget will restore a larger, more 
capable and lethal modernized force to defeat emerging regional and 
global near-peer adversaries. Combat Training Center rotations and home 
station training will help the Army develop capabilities for full-
spectrum warfare. Additional Soldiers, training, and equipment will 
enable the Army to make significant progress towards restoring and 
sustaining readiness longer.
    The Navy will continue implementation of its Optimized Fleet 
Response Plan, reduce the long-term maintenance backlog, and train to 
ensure the Fleet is ready to fight. Requested funding provides stable 
and predictable maintenance and modernization plans, and forces trained 
to a single full-mission readiness standard. Predictably building 
readiness with continued implementation of the Optimized Fleet Response 
Plan will increase aircraft carrier availability, fund ship operations 
to the anticipated level of required operational days, and improve 
quality of work and quality of life for Sailors.
    The Air Force will restore funding to its Flying Hour Program, 
increase aircraft sustainment, and grow training resource availability. 
These steps will enable personnel to regain proficiency in critical 
skill areas. Investments into training ranges will increase capacity 
and modernize the simulated threats our young men and women need to 
overcome to counter adversaries. The Air Force will also invest in home 
station high-end training, reducing the requirement to deploy for 
training.
    The Marine Corps is committed to remaining capable of responding to 
crises anywhere around the globe. fiscal year 2018 investments 
emphasize readiness for deployed and next-to-deploy forces, maintenance 
for aging platforms, and funding to maintain critical modernization 
programs. Fully integrated Combined Arms Exercises for all elements of 
the Marine Air Ground Task Forces will help recover full-spectrum 
readiness.
    The second priority is increasing capacity and lethality while 
preparing for future investment in the fiscal year 2019 budget, driven 
by results from the National Defense Strategy. The fiscal year 2018 
budget request addresses resource gaps in the capabilities, readiness, 
and capacity needed to project power globally in contested 
environments, while emphasizing preparedness for future high-end 
security challenges. The budget request supports this priority through 
investment in advanced capabilities to reassert our technological edge 
over potential future adversaries, while having more units ready to 
fight.
    The fiscal year 2018 budget request seeks to fill the holes and 
achieve program balance before beginning to significantly grow capacity 
in future years. Part of achieving a more capable force involves 
pursuing innovative ways to develop the force and concepts of operation 
to reverse unfavorable cost ratios adversaries would seek to impose on 
the United States in future warfighting environments. The fiscal year 
2018 investments include power projection capabilities, nuclear 
modernization, a stronger missile defense, space-based systems, and 
cyberspace operations. Several of these options will expand the 
competitive space to our advantage vice allowing an adversary to define 
a conflict. Our budget request also ensures that the nation's current 
nuclear deterrent will be sustained, and supports continuation of its 
much needed modernization process.
    The third priority is reforming how the department does business. I 
am devoted to gaining full value from every taxpayer dollar spent on 
defense, thereby earning the trust of Congress and the American people.
    The Department is committed to reforming the acquisition enterprise 
to improve its ability to be innovative, responsive, and cost 
effective. The Department has begun implementation of a range of reform 
initiatives directed by the 2017 NDAA, to include disestablishment of 
the Under Secretary of Defense for Acquisition, Technology and 
Logistics, and the establishment of the Under Secretaries for Research 
and Engineering, and for Acquisition and Sustainment. Consistent with 
section 901 of the National Defense Authorization Act for fiscal year 
2017, this change will be in effect by February 1, 2018, or sooner if 
I'm able to set the necessary conditions.
    The fiscal year 2018 budget request includes notable reform 
efforts. I urge Congress to support the Department's request for 
authority to conduct a 2021 Base Realignment and Closure (BRAC) round, 
a cornerstone of our efficiencies program. The Department currently has 
more infrastructure capacity than required for operations--and 
foreseeable growth scenarios won't appreciably change this. I recognize 
the severity of BRAC's impact on communities and the careful 
consideration that members must exercise in considering it. In order to 
ensure we do not waste taxpayer dollars I would therefore greatly 
appreciate Congress' willingness to discuss BRAC authorization as an 
efficiency measure. That authorization is essential to improving our 
readiness by minimizing wasted resources and accommodating force 
adjustments. Waste reduction is fundamental to keeping the trust of the 
American people and is a key element of the efficiency/reform efforts 
that Congress and the Administration expect of us. Of all the 
efficiency measures the Department has undertaken over the years, BRAC 
is one of the most successful and significant--we forecast that a 
properly focused base closure effort will generate $2 billion or more 
annually--enough to buy 300 Apache attack helicopters, 120 F/A-18E/F 
Super Hornets, or four Virginia-class submarines.
    During fiscal year 2018 the Department is on track to enter into a 
full, agency-wide financial statement audit as required by statute. As 
part of this effort, the Department has established a Cost Decision 
Framework that leverages commercial best practices. This initiative 
will give decision makers the information they need to make a fully 
informed, cost-based decision.
    The fourth priority is keeping faith with Service members and 
families. Military and civilian personnel are the foundation of the 
Department of Defense. The Nation's commitment to these patriots 
willing to serve our country is built into the fiscal year 2018 budget 
request and is demonstrated by the number of initiatives and programs 
to support their professional development and their personal and family 
lives.
    Comprising roughly one-third of the Department of Defense budget, 
military pay and benefits are the single largest expense category for 
the Department. I believe providing competitive pay and benefits is a 
necessity to attract and retain the highly qualified people needed in 
today's military. The right people are the Department's most valuable 
asset, but we must continually balance these requirements against other 
investments critical to readiness, equipment, and modernization to 
ensure the military is the most capable warfighting force in the world. 
Balancing resources is particularly important as the Department 
reshapes the force needed to remain effective in an uncertain future. 
Investment in military compensation, Blended Retirement, the Military 
Health System, and family programs are essential to fielding the talent 
we need to sustain our competitive advantage on the battlefield.
    The fifth priority is support for Overseas Contingency Operations. 
The fiscal year 2018 President's Budget requests $64.6 billion, 
focusing on Operations in Afghanistan, Iraq, and Syria, increasing 
efforts to sustain NATO's defenses to deter aggression, and global 
counterterrorism operations. Specifically, ISIS and other terrorist 
organizations represent a clear and present danger. The U.S. remains 
united and committed with the 66 nations of the Defeat-ISIS Coalition--
plus the European Union, NATO, Arab League, and Interpol--to destroy 
ISIS. We will continue to support partner nations' diplomatic and 
military efforts through a security cooperation approach. I am 
encouraged by the willingness of our allies and partners to share the 
burden of this campaign.
    The fiscal year 2019 budget, informed by the National Defense 
Strategy, will grow the All-Volunteer Force. The Department will work 
with President Trump, Congress, and this committee to ensure the budget 
request we present for fiscal year 2019-2023 is sustainable and that it 
provides the Commander-in-Chief with viable military options in support 
of America's security.
    Judicious spending of America's public money is critical to 
ensuring security while maintaining solvency. We already know we face a 
dilemma between increasing personnel end strength and force structure 
on the one hand, and investing in equipment as well as research and 
development on the other hand. These challenges are compounded by the 
pressing need to recapitalize the nuclear triad and the sealift fleet 
in the 2020s. The President's Nuclear Posture Review will look at all 
elements of U.S. nuclear forces to ensure that our nuclear deterrent, 
including our command, control, and communication systems, are 
appropriately tailored to deter emerging 21st century threats.
    I know we will have to make hard choices as we develop our new 
defense strategy and shape the fiscal year 2019-2023 defense program. 
With the help of Congress, I am confident we can build a force that is 
necessarily more lethal without placing an undue burden on the American 
economy.
    I am keenly aware members of this committee understand the 
responsibility each of us has to ensuring our military is ready to 
fight today and in the future. I need your help to inform your fellow 
members of Congress about the reality facing our military--and the need 
for Congress as a whole to pass a budget on time.
    Thank you for your strong support and for ensuring our troops have 
the resources and equipment they need to fight and win on the 
battlefield. I pledge to collaborate closely with you for the defense 
of our Nation in our joint effort to keep our Armed Forces second-to-
none.
    Chairman Dunford is prepared to discuss the military dimensions of 
the budget request.

    Senator Cochran. The chair now recognizes the chairman of 
the Joint Chiefs of Staff, Joseph Dunford.
    General Dunford, you may proceed.
STATEMENT OF GENERAL JOSEPH F. DUNFORD, JR., U.S. 
            MARINE CORPS, CHAIRMAN, JOINT CHIEFS OF 
            STAFF
    General Dunford. Chairman Cochran, Ranking Member Durbin, 
distinguished members of the committee, it is an honor to join 
Secretary Mattis in testifying before you today.
    I am honored to represent your men and women in uniform, 
and it is because of them and your support that I can begin by 
saying, with confidence, that your Armed Forces remain the most 
capable in the world.
    However, that competitive advantage that the United States 
military has long enjoyed is eroding. A number of factors have 
contributed to the erosion.
    Since 9/11, an extraordinarily high level of operational 
tempo has accelerated the wear and tear on our weapons and 
equipment. Meanwhile, budget instability and the Budget Control 
Act have forced the department to operate with far fewer 
resources than required to execute the strategy of record.
    As a consequence, we prioritize near-term readiness at the 
expense of replacing aging equipment and capability 
development. We also maintain a force that consumes readiness 
as fast as we can build it. And we lack sufficient capacity to 
meet our current operational requirements while rebuilding and 
maintaining what we describe as full spectrum readiness.
    The Secretary and the service chiefs have been up and 
addressed this dynamic in their testimonies, and I fully concur 
with their assessments. But beyond current readiness, we are 
confronted with another significant challenge that I assess to 
be near term.
    While we have been primarily focused on the threat of 
violent extremism, our adversaries and our potential 
adversaries have developed advanced capabilities and 
operational approaches specifically designed to limit our 
ability to project power. They recognize that our ability to 
project power is the critical capability necessary for us to 
defend the homeland, advance our interests, and meet our 
alliance commitments.
    As Secretary Mattis mentioned, today, Russia, China, and 
Iran field a wide range of cyber, space, aviation, maritime, 
and land capabilities. And those are specifically designed to 
limit our ability to deploy, to employ, and to sustain our 
forces. Russia and China have also modernized their nuclear 
arsenal while North Korea has been on a relentless path to 
field a nuclear-armed ICBM (intercontinental ballistic missile) 
that can reach the United States. Of course, that is well-
documented.
    In just a few years, if we do not change the trajectory, we 
will lose our qualitative and our quantitative competitive 
advantage. And the consequences will be profound, in my 
judgment. It will adversely affect our nuclear deterrence, our 
conventional deterrence, and our ability to respond, should 
deterrence fail.
    Alternatively, we can maintain our competitive advantage 
with sustained, sufficient, and predictable funding. To that 
end, the fiscal year 2018 budget request is an essential step, 
and it builds on the fiscal year 2017 supplemental that the 
Secretary mentioned.
    But this request is not going to fully restore readiness or 
arrest the erosion of our competitive advantage. Doing that is 
going to require sustained investment beyond fiscal year 2018.
    Specific recommendations for fiscal year 2019 and beyond 
are going to be informed by the Secretary's forthcoming 
National Defense Strategy. However, we know now that continued 
growth in the base budget of at least 3 percent above inflation 
is the floor necessary to preserve the relative competitive 
advantage we have today, not build the force of tomorrow, but 
to maintain the relative competitive advantage that we have 
today.
    As we ask for your support, we recognize the responsibility 
to maintain the trust of the American taxpayer. And we take 
this responsibility seriously, and we will continue to 
eliminate redundancies and achieve efficiencies wherever 
possible.
    Thanks again for the opportunity to appear before you this 
morning, and, more importantly, thanks for all you do to ensure 
that young Americans never find themselves in a fair fight.
    With that, Chairman, I am prepared to take questions.
    [The statement follows:]
          Prepared Statement of General Joseph F. Dunford, Jr.
    Chairman Cochran, Ranking Member Durbin, distinguished members of 
this committee, thank you for the opportunity to join Secretary Mattis 
in appearing before you today.
    The U.S. military's competitive advantage against potential 
adversaries is eroding. Over the last decade, sustained operational 
commitments, budgetary instability, and advances by our adversaries 
have threatened our ability to project power and we have lost our 
advantage in key warfighting areas. The fiscal year 2018 Budget Request 
will allow the Armed Forces to meet operational requirements, continue 
rebuilding warfighting readiness, and place the military on a path to 
balancing the Defense program. However, without sustained, sufficient, 
and predictable funding, I assess that within 5 years we will lose our 
ability to project power; the basis of how we defend the homeland, 
advance U.S. interests, and meet our alliance commitments.
                         strategic environment
    In today's strategic environment, five key challenges--Russia, 
China, Iran, North Korea, and Violent Extremist Organizations--most 
clearly represent the challenges facing the U.S. military. They serve 
as a benchmark for our global posture, the size of the force, 
capability development, and risk management.
    Over the past several decades, each of these state actors have 
developed capabilities and operational approaches to counter our 
strategic and operational centers of gravity. The United States' 
decisive victory in DESERT STORM in 1991 was a wake-up call for our 
adversaries. For Russia and China, specifically, the lessons-learned 
spurred dramatic tactical, operational, and strategic adaptations. 
Observing the power and efficacy of precision guided munitions and 
combined arms maneuver, both countries accelerated modernization 
programs to asymmetrically counter U.S. advantages. They adapted 
operational constructs to incorporate anti-access technology and 
employed new doctrines to leverage high-tech weaponry across all 
domains. These efforts sought to limit U.S. freedom of navigation, deny 
our ability to gain and maintain air-superiority, negate the capability 
of our precision munitions, and limit our ability to employ 
sophisticated command and control systems.
    Today, Russia continues to invest in a full-range of capabilities 
designed to limit our ability to project power into Europe and meet our 
alliance commitments to NATO. These capabilities include long-range 
conventional strike, cyber, space, electronic warfare, ground force and 
naval capabilities. Russia is also modernizing all elements of its 
nuclear triad and its non-strategic nuclear weapons. These capabilities 
are intended to enable Russia to counter U.S. and NATO power projection 
and undermine the integrity of the NATO alliance.
    Similarly, China has embarked on a significant program to modernize 
and expand strategic and conventional military capabilities. They have 
expanded their nuclear enterprise and made investments in power 
projection, space, cyber, hypersonic weapons, cruise missiles, and 
ballistic missiles--even as they continue to build out their physical 
presence in the South China Sea. China is also investing heavily in 5th 
generation fighters, air-to-air missiles, air defense systems, and sea 
and undersea anti-access technologies to limit our ability to project 
power, operate freely, and meet our alliance commitments in the 
Pacific.
    Russia and China are not alone in these pursuits. North Korea's 
nuclear weapons development, combined with efforts to develop a 
nuclear-capable ballistic missile capability, is specifically intended 
to threaten the security of the homeland and our Allies in the Pacific. 
Over the past year, North Korea conducted an unprecedented number of 
missile tests. Moreover, North Korea has demonstrated a willingness to 
use malicious cyber tools against governments and industry. These 
actions destabilize the region and pose an increasing threat to U.S. 
and our allies.
    Iran seeks to assert itself as the dominant regional power in the 
Middle East. They continue to support international terrorist 
organizations like Hezbollah, and support proxies in Syria, Iraq, and 
Yemen to assert influence and counter the influence of the U.S. and our 
Allies. They actively seek to destabilize their neighbors, and employ 
naval capabilities that threaten freedom of navigation. At the same 
time, they are modernizing an array of ballistic missiles, missile 
defense, space, cyber, maritime, and cruise missile capabilities.
    Finally, Violent Extremist Organizations such as ISIS and al Qaida 
remain a threat to the homeland, our Allies, and our way of life. 
Violent extremism is fundamentally a transregional threat and a 
generational struggle that requires our military to work with 
interagency and coalition partners to disrupt external attacks, and 
dismantle their capabilities wherever they emerge. Even with the 
success of our continued efforts to defeat the Islamic State in Iraq 
and Syria, the threat of Islamic terrorism will remain.
    A review of these five challenges demonstrates that the U.S. 
military requires a balanced inventory of advanced capabilities and 
sufficient capacity to act decisively across the range of military 
operations. As a nation that both thinks and acts globally, we cannot 
choose between a force that can address ISIS and other Violent 
Extremist Organizations, and one that can deter and defeat state actors 
with a full range of capabilities. Nor do we have the luxury of 
choosing between meeting our current operational requirements and 
developing capabilities that we will need to meet tomorrow's 
challenges.
    However, as a result of sustained operational tempo and budget 
instability, today the military is challenged to meet operational 
requirements and sustain investment in capabilities required to 
preserve--or in some cases restore--our competitive advantage.
    Sustained operational tempo and demand have forced the Department 
to prioritize near-term readiness at the expense of modernization. 
Additionally, a conscious choice was made to limit the size of the 
force in order to preserve scarce resources necessary for essential 
investments in immediate upgrades to critical capabilities. As a 
result, today, demand for high-demand/low-density specialties often 
outpaces supply. Particular stress is felt in specialties such as ISR, 
missile defense systems, naval expeditionary forces, special operations 
forces, global precision strike units, and cyber forces. Additionally, 
over the past 2 years, munitions expenditures in ongoing operations 
against Violent Extremist Organizations exacerbated existing 
shortfalls.
    Making matters worse, for the past 5 years, the Budget Control Act 
(BCA) has forced the Department of Defense (DoD) to operate with about 
$450 billion less than planned and required. These reductions have been 
aggravated by repeated Continuing Resolutions (CR) which hamper long-
term investment and often result in increased costs. For nine of the 
last 10 years, the Department of Defense has operated under some type 
of CR, delaying critical new starts, deferring installation and 
infrastructure modernization, and canceling major training events. A 
year-long fiscal year 2018 CR would cut $33 billion from the 
Department's request, further exacerbating these problems.
    Based on these factors, the Army has been forced to prioritize 
near-term readiness and now faces a shortage of critical capabilities 
and capacities in armor, air defense, artillery, and aviation. These 
deficiencies are made worse by manpower shortfalls in critical military 
specialties and training resource constraints. Consequently, the Army 
is limited in its ability to man, train, and equip fully-ready Brigade 
Combat Teams (BCT) and other critical enablers required to deploy, 
sustain, and protect service members operating around the world.
    For similar reasons, the Navy faces readiness challenges in both 
ships and aircraft. Operational requirements and capacity constraints 
in shipyards and aircraft depots have increased the time and cost 
required to conduct major repairs. Maintenance delays, low stocks of 
spare parts, lack of training ordnance, and aging infrastructure impair 
the Navy's ability to conduct integrated training. As a result, the 
Navy is limited in its ability to meet operational demand for maritime 
capability and power projection, especially in contested environments.
    The Air Force is also challenged to balance operational demands and 
invest for the future. Today, the Air Force is short almost 1,500 
pilots, including 800 fighter pilots, and more than 3,400 maintainers 
across all components. They lack sufficient resources to adequately 
support both 4th and 5th generation training. And they have delayed 
investment in 4th generation aircraft modifications while limiting the 
fielding of 5th generation strike-fighters. The result is fewer trained 
pilots available to deploy, over-tasked and aging aircraft, and delays 
in modernization programs required to defeat near-peer adversaries.
    Over the last several years, the Marine Corps has been forced to 
delay planned investments in infrastructure, Command and Control, and 
ground systems required to build, train, and launch combat ready 
forces. Today, the Marine Corps lacks sufficient Ready Basic Aircraft 
for training and deployments and has delayed procurement of the F-35, 
CH-53K, MV-22, and KC-130J aircraft. These delayed investments limit 
the Marine Corps' strategic flexibility and inhibit its ability to meet 
operational demands.
    If these trends continue, and the constraints of sequestration are 
not lifted, the Department will have to cut force structure, as the 
tradeoffs required to maintain the capability and capacity of the 
current force are no longer sustainable. Going forward, the Department 
of Defense requires sustained, sufficient, and predictable funding to 
meet current operational requirements, restore readiness shortfalls, 
and place us on a path toward restoring our eroded competitive 
advantage.
Impact of Fiscal Year 2017 Request for Additional Appropriations (RAA).
    Congress' willingness to support the Administration's request for 
additional resources in fiscal year 2017 was a necessary first step to 
reverse the impacts of under-investment over the last 5 years. The 
fiscal year 2017 appropriation yielded improvements in immediate 
warfighting readiness by providing funding for modest increases to end 
strength that primarily filled holes in existing units, funding full 
spectrum training, beginning to replenish depleted ammunition stocks, 
and continuing the restoration and modernization of critical systems.
    However, the fiscal year 2017 Appropriations Bill did not fully 
address the Department's modernization and procurement requirements and 
significant, long-term readiness challenges remain. The Services' 
inability to fully fund procurement of key platforms continues to 
hamper readiness by limiting the number and types of platforms 
available for initial entry training, individual proficiency, and 
collective training. Because of this, the military begins the fiscal 
year 2018 budget cycle in a less healthy position than if the fiscal 
year 2017 RAA was fully funded, making full and on-time funding of this 
budget even more critical.
Intent of the Fiscal Year 2018 Budget: What Does it do?
    The fiscal year 2018 Budget Request builds on the readiness 
recovery started in fiscal year 2017, starts to fill the holes created 
by the BCA, and begins to balance the program. It enables the 
Department to meet operational requirements, begin rebuilding mid- and 
long-term readiness, and begin restoring capability and capacity 
necessary to improve lethality. These are essential first steps in 
arresting the erosion of the military's competitive advantage.
    In Afghanistan, fiscal year 2018 investments will reinforce 
improvements in the Afghan National Defense and Security Forces. In 
Iraq and Syria, the Budget Request funds emerging requirements and 
provides sufficient funding and authority for the defeat-ISIS train and 
equip fund. In Europe, the Budget Request provides a 40 percent 
increase in funding for the European Reassurance Initiative (ERI) that 
sustains ongoing assurance efforts, and improve the capability of the 
U.S. forces and our Allies to deter potential Russian aggression.
    To rebuild warfighting readiness, the Army will fully man its 
combat formation, fund 19 Combat Training Center rotations in fiscal 
year 2018, and increase resources for home-station training to ensure 
units maximize full spectrum readiness. The Navy will provide flying 
hours and increase depot maintenance to enable integrated air/sea 
training. The Air Force will invest in training required to improve 4th 
and 5th generation warfighting capability. The Marines will increase 
funding for flying hours, logistics, and engineering units, and focus 
training resources on amphibious and combined arms operations.
    Maintenance resources included in the fiscal year 2018 Budget 
Request also improve readiness. The Army will prioritize maintenance 
for equipment coming out of theater in order to prepare it for unit 
training and refill prepositioned stocks in Europe and the Pacific. The 
Navy will add critical workforce capacity that reduces ship and 
aviation depot maintenance backlogs. The Air Force will conduct overdue 
weapons system sustainment, increase maintenance for inter-theater 
airlift, and execute recapitalization of critical systems. The Marines 
will prioritize maintenance for MV-22, rotary wing, and fighter 
aviation to improve its survivability, mobility, and lethality.
    To begin restoring capacity and lethality across the force, the 
fiscal year 2018 Budget makes critical investments in Tactical Air 
(TACAIR), ships, space, and cyberspace, and begins essential nuclear 
recapitalization efforts. Investments in TACAIR enable the Air Force, 
Navy, and Marine Corps to continue procurement of 5th generation 
fighters and fund upgrades to 4th generation fighters that fill 
shortfalls and begin to grow capacity. The Air Force will procure 46 F-
35As and begin upgrades to F-16s. The Navy will procure 4 F-35Cs and 14 
F/A-18E/Fs to mitigate its strike fighter shortfall. The Marines will 
procure 20 F-35Bs. These investments, coupled with investments in 
modernization of depot maintenance facilities, allow us to begin 
reversing the impact of delays in TACAIR modernization over the past 5 
years.
    The fiscal year 2018 Budget Request supports the Navy's growth by 
supporting the procurement of 9 ships and continuing necessary 
investments to upgrade and modernize nuclear aircraft carriers, 
destroyers, littoral combat ships, TICONDEROGA-class cruisers, 
amphibious assault ships, and submarines. These investments are 
essential to enabling the Navy to project power, ensure forward 
presence and deterrence, ensure access to the global commons, and 
provide ballistic missile defense.
    Continued improvement in space-based systems enables us to better 
protect satellites, improve tracking/discrimination capabilities, and 
continue domestic launch development. Cyberspace investments prioritize 
hardening information networks, defending against cyber-attacks, and 
continuing to build, train, and equip cyber mission forces and maturing 
cyberspace command and control. These advances improve both offensive 
and defense space and cyberspace capabilities and enhance the 
resiliency of our systems and networks.
    The fiscal year 2018 Budget Request also invests in upgrades to the 
nuclear enterprise, including inter-continental ballistic missiles, 
nuclear submarines, strategic bombers, and command and control systems. 
Continuing to maintain a secure and effective nuclear deterrent is 
essential to defending the homeland.
    However, the fiscal year 2018 Budget Request alone will not fully 
restore readiness or arrest the military's eroding competitive 
advantage. Reversing the impact of the past 5 years of sustained 
operational tempo and budget instability requires sustained investment 
beyond fiscal year 2018.
What Fiscal Year 2018 Budget Request Doesn't do: Areas for Continued 
        Investment.
    Specific recommendations for fiscal year 2019, and beyond, will be 
informed by the results of the National Defense Strategy. Today, 
however, we know that continued investment is needed to execute 
responsible growth in capacity, build advanced capabilities, and 
restore the long-term readiness. These investments are essential to 
ensuring our ability to project power and maintain a credible strategic 
deterrent.
    We continue to consume readiness as fast as we build it and lack 
sufficient capacity to both meet today's operational requirements and 
rebuild the competencies necessary to defeat near peer adversaries. As 
a result, our units are training to meet their assigned missions at the 
expense of training for their designed mission. To break this cycle, we 
must increase capacity in critical areas such as C4ISR, fighter 
aircraft, armored BCTs, amphibious ships, and special operations 
forces. This additional capacity will allow us to meet today's 
requirements and prepare for tomorrow's.
    We must also invest in advanced capabilities required to defeat 
near-peer adversaries. As we have prioritized readiness for ongoing 
operations, our adversaries have prioritized investment in technologies 
that exploit our vulnerabilities and limit our ability to project 
power. To ensure our competitive advantage, we must accelerate 
investments in systems that defeat adversary anti-access capabilities 
at sea and under the sea, improve our ISR resiliency, guarantee access 
to space and cyber, and enable us to defeat integrated air defenses. 
These advanced capabilities are vital to maintaining the U.S. 
military's competitive advantage in all environments and across all 
domains.
    It is also essential that we restore Comprehensive Joint Readiness, 
the ability of the U.S. military to deploy, employ, and sustain itself 
anywhere in the world, while maintaining the flexibility to transition 
from one crisis to another, across the range of military options. This 
requires sufficient capacity, the necessary capabilities, and iterative 
training. Our Air Force must possess the right mix of 4th and 5th 
generation aircraft and have sufficient capacity to conduct integrated 
training. Our Navy must grow and modernize while preserving a globally-
present fleet, capable of sailing and operating anywhere in the world.
    The Army and Marine Corps must fill unit short-falls and upgrade 
ground tactical vehicles while expanding full spectrum training. These 
investments are essential to projecting power in contested environments 
against any adversary and operating across the spectrum of conflict.
    Additionally, we must invest in maintaining a credible strategic 
deterrent. Due to fiscal constraints, we have delayed modernization of 
all three legs of the nuclear triad and are now approaching decision 
points with no remaining schedule margins. Over the coming decades we 
must recapitalize our inter-continental ballistic missiles, ballistic 
missile submarines, strategic bombers, and many of our command, 
control, and communication systems.
    Recapitalization costs will be significant and can no longer be 
delayed if the United States wants to maintain a safe, secure, and 
effective nuclear deterrent.
                               conclusion
    Today, despite the challenges facing us, our military is the most 
capable military in the world. We need sustained, sufficient, and 
predictable funding to grow sufficient capacity, develop the correct 
mix of advanced capabilities, and ensure a ready force. These 
investments are necessary to ensure our ability to defend the homeland 
and project power when and where required. With your help and 
commitment, we can preserve our competitive advantage and ensure that 
we never send America's sons and daughters in to a fair fight.

    Senator Cochran. The chair recognizes the distinguished 
Senator from Illinois, Richard Durbin.
    Senator Durbin. Thanks very much, Mr. Chairman.
    Secretary Mattis and General Dunford, thank you again for 
being before the committee.

                    ADDITIONAL TROOPS TO AFGHANISTAN

    Secretary Mattis, I voted for you to be the Secretary of 
Defense. We have some differences, but I respect you very much 
and the service you have given this country.
    But there was another reason. We have a President of the 
United States with no political or military background 
whatsoever, and he comes to this job with one of the most 
awesome responsibilities in the world as Commander in Chief of 
the greatest military in the world, from my point of view, and 
I imagine you share that.
    There may come a moment, I hope it does not, where he has 
to make a fateful decision in a matter of minutes that could 
involve the loss or jeopardy of thousands of lives. I am 
hoping, in those few minutes, he picks up the phone calls you 
and others like you who have seen war, who understand the brave 
young men and women who serve our country, and have had the 
terrible responsibility of sending them into battle knowing 
that all of them would not come home.
    That is why I voted for you, and that is why I still stand 
behind you.
    But I look at the situation in Afghanistan and the 
President's recent delegation of authority to you, and I have 
some questions, which I would like to address to you, because 
they get to the heart of why we are in Afghanistan, what our 
goal is, and how it impacts the budget that you put before us 
today.
    It was recently written the Afghan security forces have 
fought bravely but lack adequate air power, leadership, 
retention rates, and coalition support to stem the tide of the 
resurgent Taliban. The Taliban now controls more ground than at 
any point since this war began in year 2001. We are in the 16th 
year of this, the longest war in American history.
    I joined 22 of my colleagues in voting against the invasion 
of Iraq, but I voted for the invasion of Afghanistan after 9/
11, going after those responsible for that terrible loss of 
American life. We have given, as a Nation, and families have 
given, 2,300 American lives in Afghanistan. We have spent 
billions of dollars. We are now dealing with a government in 
its third year that is universally viewed as corrupt, inept, 
and too weak to govern. And yet, we hear this President and 
others say it is time to send in more American troops.
    I would like to ask you, at this point, what are the likely 
prospects that sending more military troops, risking more 
American lives, spending billions more in dollars will make any 
difference 16 years from now than it has in the first 16 years?
    Secretary Mattis. Senator, it is a fair question. I would 
say that the reason that we have not been attacked over many 
years from when that 9/11 attack originated is heavily due to 
the sacrifices that we have made over the years. As we have 
kept the enemy on the back foot, it is hard for them to conduct 
external operations out of that former stronghold when they are 
just trying to hang on to their own lives and avoid us.
    I believe that we pulled out our forces at a time, as you 
know, when the violence was lower, but we pulled them out on a 
timeline rather than consistent with the maturation of the 
government and the security forces. The result was that, as 
security declined, all the other stresses have come to bear to 
include heavy casualties on the part of the Afghan forces. 
Other nations pulled their forces out as well. And further, the 
Taliban was emboldened.
    So why would I come to you and tell you there is some 
alternative now where we put some forces back in? We would have 
to change the priorities, and we would have to put it in a more 
regional construct, any kind of force increase. By regional 
construct, I mean we consider issues from India and Pakistan 
all the way over to Iran, because of the bordering nations. And 
ignoring those means you put in a strategy that has not taken 
into account some of the most fundamental factors that will 
impact on its success or failure.
    Most importantly, we restore the high ground. And that is a 
place where the NATO air forces are dominant overhead.
    But at one point, when we reduced our forces there, I 
believe, in what was probably in hindsight a misguided 
application of our forces, we restricted them from using our 
air support, with some idea that we would ween them off the 
need of it. That meant, in the mountain country, these troops 
were often fighting at a disadvantage.
    So we changed the way we fight. We change the regional 
construct. And we changed our approach to how we deal with this 
government.

                         TROOP LEVELS IN COMBAT

    Senator Durbin. I want to ask you this question, Mr. 
Secretary. Just a few years ago under President Obama, we had 
almost 100,000 American troops. We are now down to roughly 
10,000 at the current time, counting NATO forces, I believe. Do 
you see us returning to those troop levels of a few years ago, 
100,000 or beyond?
    Secretary Mattis. No, sir. I do not.
    Senator Durbin. Could you give me some range of what you 
expect us to commit?
    Secretary Mattis. Sir, I need to equate the lines of effort 
that we need under a refreshed, new approach, and then I will 
come up and I will sit down with you. I am talking about within 
weeks, not months. I will come up and brief you and any of your 
colleagues.
    I think right now what we have to look at is what kind of 
capabilities we bring to them because the Afghans have proven 
they will fight. They have suffered horrible losses, and they 
keep fighting. They are not fighting as well as they could, if 
we gave them the kind of air support, more intel support that 
we could give them, and also if we brought more diplomatic and 
economic pressures on surrounding nations, perhaps.
    So it is a much broader whole-of-government approach that 
Secretary Tillerson and I meet on every week as we put together 
a State Department-led foreign policy with a military strategy 
to help carry it out.
    Senator Durbin. Thank you, sir.
    Senator Cochran. The time of the Senator has expired.
    The distinguished Senator from Alabama, Richard Shelby.
    Senator Shelby. Thank you.

                               NAVY FLEET

    General Dunford, I will start with you.
    When Admiral Harris, who is commander of the Pacific 
Command, recently testified in the Senate, he said that getting 
to the President's stated goal of at least 350 ships would 
enable him to meet what he called his steady state requirements 
in the Pacific theater, in other words to keep the risk down 
when responding to possible Chinese coercion or North Korean 
aggression.
    He also said that we need to grow the size of the Navy 
fleet, and we need to make our ships more lethal.
    Do you agree with Admiral Harris?
    General Dunford. Senator, I participated, including my 
previous assignment as a commandant in the Marine Corps, in 
studies to assess the number of ships that are required for 
security. And I think Admiral Harris' numbers are right to meet 
his requirement.
    Of course, our priorities that we provided to you this year 
are within the topline that were given.
    I think what is an important point, though, I just want to 
reemphasize, when I spoke about the minimum amount of money 
that we would need to maintain our competitive advantage at 
about 3 percent, in order to get to the 355 ships and grow the 
Army and the Air Force commensurately, those numbers are really 
closer to five and beyond. So to get to a 355-ship Navy would 
require significant more resources.
    So what we tried to do in 2018 is maintain a ship profile 
that we are on. You will see that it is the same as it was in 
2017, in terms of number of ships in the program. While we 
would want to grow, we simply have not had the topline that 
allows us to do that.

                                  LCS

    Senator Shelby. In growing that fleet, is the LCS (littoral 
combat ship) very important to that mission?
    General Dunford. The LCS is very important, particularly as 
the Navy looks for ways to increase the lethality of the LCS 
and really have that perform a mission more like a frigate than 
it had been envisioned.

                            INDUSTRIAL BASE

    Senator Shelby. Along those lines, the industrial base of 
the Navy and the Army is critical, I believe. Would you be in a 
position to assess the existing opportunities in the Navy's 
Seahawk helicopter manufacturing base that provides our ships 
with the warfighting equipment that make the U.S. fleet 
effective? I think that is important.
    And also, Secretary Mattis, the U.S. Army's unfunded 
requirements dealing with the Stryker, the upgrades and so 
forth, Mr. Secretary, would you work with this committee to try 
to protect that industrial base, also produce the best 
equipment, too?
    General Dunford. I would, Senator.
    Secretary Mattis. Yes, sir. Absolutely. I have reviewed the 
Army's unfunded priorities list, Senator. I think the 
priorities we have in the base budget are right. If we got more 
money, I think they have laid out a pretty good program.

                          RD-180 ENGINE/SPACE

    Senator Shelby. Sure. To assure our access to space, which 
is very important, as everybody knows here, could you provide 
the committee with an update on the status of the department's 
efforts to replace a Russian-made RD-180 engine. You know we 
are working on that, with an American engine, rather than rely 
on the Russians.
    I know we are spending a lot of money in that area. We want 
to finish it.
    Can you give us an update on that?
    Secretary Mattis. Sir, I can tell you that we are on track 
to replace it. It is going to take some time, just because 
these capabilities take time to rebuild.
    Senator Shelby. We know.
    Secretary Mattis. But we are on track for it, Senator, and 
we can give you the timeline very shortly.
    Senator Shelby. Can you furnish that for the record?
    Secretary Mattis. Absolutely.

                           IRAN PERSIAN GULF

    Senator Shelby. In my limited time, Mr. Secretary, would 
you touch base with us right now on what we are doing in the 
Persian Gulf area to counter Iranian influence in the Persian 
Gulf, in the Middle East? And has our position, our posture, 
changed since the agreement was signed regarding nuclear 
weapons?
    Iran seems to be pretty aggressive everywhere in the Middle 
East and the Persian Gulf.
    Secretary Mattis. Sir, I believe the nuclear arms agreement 
is an imperfect arms control agreement, but it is not a 
friendship treaty. There are four other threats: ballistic 
missile, cyber, counter-maritime, and terrorist. They have 
aggressively moved out on all of those.
    And you saw President Trump's trip out there to try to 
align the Arab nations and bury some of their differences as 
they confront this growing threat, and also with Israel, whose 
security is threatened by Iran.
    We are working the issues across-the-board. We are gaining 
interoperability with their forces through some of the arms 
sales that brings interoperability that we would need in order 
to deter Iranian influence.
    But there is no doubt, sir, that they are the leading cause 
of instability in the Middle East.

                              NORTH KOREA

    Senator Shelby. Could you touch briefly on North Korea, the 
threat there that we are all concerned with, as they have more 
and more capability, it seems?
    Secretary Mattis. Yes, sir. Preparing for the Senate 
confirmation, I met with the CIA (Central Intelligence Agency). 
They told me this would be probably the earliest crisis I would 
face, so that was my first trip, was to the Pacific. I met both 
in Tokyo and Seoul with political and military leadership.
    We, as you know, moved some ballistic missile protection, 
THAAD (Terminal High Altitude Area Defense), into South Korea 
in a combined forces decision, political decision, by the South 
Koreans. That is being reviewed by their new administration.
    But more importantly, the President invited the President 
of China to Mar-a-Lago, where we had extensive talks. There 
were only two subjects. This was half of those subjects.
    And right now, I think we are seeing assistance from China 
in dealing with this growing issue. The military options are 
uniformly very, very tough. They are very serious. And the 
effort right now led by Secretary of State Tillerson under the 
President's direction is to find a diplomatic solution, if 
there is anything along those lines possible. It is full effort 
on this by all the interagency working with Secretary 
Tillerson.
    Senator Shelby. Thank you.
    Senator Cochran. The time of the distinguished Senator has 
expired.
    The chair now recognizes the distinguished Senator from 
Vermont, Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.

                     DEPARTMENT OF STATE REDUCTIONS

    Secretary Mattis, we had Secretary Tillerson before the 
committee, and I read back a quote of yours, when you said, 
``If you don't fund the State Department fully, then I need to 
buy more ammunition. The more that we put into the State 
Department's diplomacy, hopefully the less we have to put into 
a military budget.''
    And then in March before this panel, you said, ``America 
has two fundamental powers, the power of intimidation and the 
power of inspiration. Soft power is largely found in the power 
of inspiration, and it is part and parcel of how we defeat the 
enemy.''
    I agree with you. A lot of people here on the Hill agree 
with you. In fact, a number of former Secretaries of Defense 
and State from both parties agree with you.
    The proposed 30 percent cut in the budget for diplomacy and 
development is called by some at the White House a way to 
improve efficiency and put America's security first. Which of 
the various proposed cuts at the Department of State and USAID, 
which of those cuts strengthen our national security?
    Nothing like giving you a tough question at the beginning.
    Secretary Mattis. No, I enjoy testifying, sir, because you 
get it straight up here.
    I have not looked, though. I have a pretty heavy load just 
trying to get my own budget under control. I have not looked at 
where the line item cuts come.
    I will tell you this, Senator Leahy, that when I read about 
it in the paper, I called Secretary Tillerson. We meet weekly. 
We talk several times a day, most days. And I told him that I 
was willing to take whatever development money I get, and as 
you are aware, I do get some for the various efforts, and we 
have a high level, the highest level, except for he and I, 
conference going on, where we are going to set priorities for 
the United States Government, and our monies will be used to 
jointly go after this. Now, we will maintain the separation and 
answer to each of the right committees.
    But I will be able to show you how we have set these 
priorities in league with the State Department, as we try to 
get the most response for the money that you give us by working 
best together.

                               READINESS

    Senator Leahy. Over the years, I have visited a number of 
war zones, nowhere near as many as you or General Dunford have. 
But I have seen the obvious necessity of our military power. 
But I have also heard almost universally from our commanders in 
the field how necessary it was to have also the soft power 
handled by the State Department and USAID.
    Now, the President's budget requests $52 billion over the 
caps established by the Budget Control Act. If we do not lift 
the budget caps from 2 years ago, effectively, we are robbing 
Peter to pay Paul, because spending above the budget caps will 
trigger sequester across-the-board in defense, which will mean 
cutting readiness.
    You do not agree with us finding ways to cut readiness, do 
you?
    Secretary Mattis. No, sir. I do not. I think the budget 
control caps have to be repealed.

                              CR/SHUTDOWN

    Senator Leahy. You testified earlier this week before the 
House Armed Services Committee that sequestration coupled with 
adopted continuing resolutions rather than full appropriations 
bills hurts the Department of Defense.
    I have been on this committee for an awful lot of years. I 
like it a lot better when we do each one of the appropriations 
bills, vote them up or down, and work it out.
    Now we were going to pass an omnibus spending bill last 
November. The President-elect asked us to have a 5-month 
continuing resolution, which was done.
    Now there has been a tweet saying we need a good shutdown 
of the government. I would assume you are not in favor of a 
shutdown, that you would rather see us reach a budget 
agreement. Is that correct?
    Secretary Mattis. That is correct, Senator.

                         NATIONAL GUARD FUNDING

    Senator Leahy. Let me ask what may sound parochial, both 
the Army and Air Force rely on our National Guard to fulfill 
missions. We are proud of our Guard in Vermont. General Dunford 
met with the head of it when he was up there.
    But we just deployed to the Middle East to cover a carrier 
gap. The Air National Guard was in the field literally in a 
matter of hours after arriving, having flown the F-16s to the 
Middle East, heavy combat.
    The Vermont Army National Guard is now integrated with the 
10th Mountain Division. I had pictures of that send to Senator 
Bob Dole, who was so proud of his action there.
    Now, I think there has to be a commitment, though, if they 
are going to get the funding they need.
    That money, General Dunford, will that be in the budget?
    That is my last question.
    General Dunford. It is in the budget, Senator. And we 
absolutely are sensitive to the fact that the Guard and Reserve 
really has transformed into an operational Reserve over the 
last decade.
    We certainly could not have done what we have done in 
Afghanistan, Iraq, Syria, and elsewhere without the 
contribution of the National Guard. And we are committed to 
making sure that they have the same modern capabilities as our 
Active Duty force, because as you suggest, they are employed in 
exactly the same way.
    Senator Leahy. Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. The time of the Senator has expired.
    We now recognize the distinguished Senator from Tennessee, 
Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    I think we have 83 years of Marine experience at the table 
in front of us. I thank you both for those distinguished 
careers.

                                  NATO

    Mr. Secretary, does President Trump unequivocally support 
NATO?
    Secretary Mattis. Absolutely.
    Senator Alexander. Does President Trump unequivocally 
support Article 5 of the North Atlantic treaty?
    Secretary Mattis. He has stated so, and I am certain he 
does.

                    EUROPEAN REASSURANCE INITIATIVE

    Senator Alexander. And you have stated so, and I believe 
Secretary Tillerson has stated so.
    I would like to talk with you about the Baltics and that 
area and Russia for a moment.
    Visiting with the President of Finland a few days ago, he 
said they have a saying about Cossacks. They take everything 
that is loose.
    You have in the budget money for the European Reassurance 
Initiative and the enhanced forward presence. While several 
Senators, including Senator Blunt, were there, it seemed to me 
that that relatively small commitment of rotating troops in the 
Baltic countries was having a desired effect of making it clear 
to Russia that if they moved into Lithuania, for example, that 
they would be running into troops from a number of NATO 
countries. Or in Poland, for example, they would be running 
into American troops with the rotating force.
    What is your opinion of the effectiveness of this forward 
lean? And is the money in your budget sufficient to provide the 
deterrence that we need?
    Secretary Mattis. Senator, we have $4.8 billion. It is 
sufficient. It is a growth of $1.4 billion over last year.
    I was up in the Lithuania forests here myself a couple 
weeks ago. What you see are framework nations, Canada, the 
United Kingdom, the Americans, and Germany, each providing the 
core element of four battle groups in Estonia, Latvia, 
Lithuania, and Poland. Around those core elements, we add other 
forces.
    So we, in effect, have probably two-thirds of NATO forces 
now arrayed up there in the Baltics and Poland under these 
various battle groups. They are working well together. They 
understand why they are there. And I think they are sending a 
very clear message, an unambiguous message, to Russia that NATO 
does not tolerate any moves against those nations.

                RUSSIAN EXERCISE IN THE BALTIC SEA AREA

    Senator Alexander. I have two more short questions.
    You have been quoted as saying you are not concerned about 
the Russian exercise in the Baltic Sea area, although the 
United States apparently will have an increased presence in the 
Baltic Sea with ships and with air flights.
    Is there some risk of an accident or a mistake that could 
provoke a problem this August or September during that Russian 
exercise?
    Secretary Mattis. Sir, there will be increased activity, 
training activity, by the Russians and by the NATO forces up at 
that time. We are taking active efforts to try to deconflict, 
to try to avoid that sort of situation.
    The chairman is in contact directly with his counterpart, 
General Gerasimov, not just on our relations in Syria and 
deconfliction there, but also more broadly.
    But it is something we always watch for. We are not 
complacent about it. But right now, I believe that it is not in 
their interests to provoke something.
    Every once in a while, they cause me to wonder about that. 
But so far, I think we are okay.

                             HYBRID WARFARE

    Senator Alexander. In Finland, we met with the Center for 
Hybrid Warfare, a little NATO organization just starting up, 
who told us about a warehouse in St. Petersburg with hundreds 
of Russians whose job is to use social media to try to disrupt 
and destabilize the countries in that area.
    Can you talk a little about that or about hybrid warfare, 
what they are facing and what we are doing about that?
    Secretary Mattis. We have watched Russia try to change the 
character of what they were doing, whether it be in Crimea or 
up in the area that you are referring to here, using fake news.
    For example, as fast as the German battle group got on the 
ground in Lithuania, there was a completely made up story put 
out by that organization about the rape of a Lithuanian girl by 
one of the German soldiers--completely fabricated. It had 
nothing to do with reality.
    So it is a very real and present effort by the Russians. We 
are aware of it. And you see it in everything from fake news to 
mucking around in other people's elections. It is a very broad-
based effort that they shift the focus on from time to time.
    Senator Alexander. My impression is that the President's 
firmness on his NATO support helps send the message to Putin 
that destabilizing those countries is a stupid thing to do, and 
he should not miscalculate the United States' attitude. I 
appreciate your comments on that.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The next Senator to be recognized is the distinguished 
Senator from California, Mrs. Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman. I 
appreciate that.
    And welcome, gentlemen.

                            NUCLEAR WEAPONS

    Secretary Mattis, I wanted to speak with you briefly about 
our nuclear weapons. The CBO (Congressional Budget Office) cost 
of modernizing our nuclear arsenal and weapons infrastructure 
is expected to be $1.2 trillion over 30 years. To date, we have 
not prioritized which nuclear weapons are necessary for 
maintaining deterrence and which are not.
    The Nuclear Posture Review, I hope, will prioritize nuclear 
weapons investments. It is my understanding you are the lead in 
that.
    Will it, in fact, give us some enlightenment as to which 
nuclear weapons are necessary for deterrence, since there is no 
limited use of nuclear weapons?
    Secretary Mattis. First, I just agree 100 percent. There is 
no limited use. I want to be clear on that. The Nuclear Posture 
Review will address that.
    I am also going back and basically interrogating Dr. 
William Perry and Ms. Rose Gottemoeller and other experts to 
make certain that we start from a position of knowledge, and we 
are not rediscovering the wheel to answer that very question.
    We are looking at each leg of the triad, and we are looking 
at each weapon inside each leg. What I am looking for is a 
deterrent that will be most compelling to make certain these 
weapons are never used.

                         NUCLEAR CRUISE MISSILE

    Senator Feinstein. Thank you. Let me ask you, then, that 
you take a good look at the new nuclear cruise missile. I have 
had an opportunity when Secretary Moniz was Secretary of Energy 
to look at the classified mockups of the old and the new. And I 
believe it is, in fact, a new nuclear weapon, and that is for 
another discussion in another place.
    It has features which concern me greatly. I do not see it 
as an effective deterrent weapon. I see it as Russia taking 
action to counter it.
    And with the cost and the fact that we have new ballistic 
missile submarines, new bombers, new intercontinental ballistic 
missiles, and new warheads, I wonder why we need to develop 
this specific weapon. The cost is going to be inordinate. And 
it has some attributes, which if we have a classified session, 
or perhaps I could talk with you about, that concern me very 
greatly.
    So if you could respond to that, I would appreciate it.
    Secretary Mattis. I can, Senator. Coming into the job that 
was one of the weapons that I focused on initially. I have not 
yet completed my own review. I would say, though, that we have 
to make certain the bombers can get through, if they are to be 
a valid deterrent from these weapons ever being used.
    So how can we keep the bombers survivable and still have 
the standoff? That is a issue I am grappling with.
    But I register loud and clear the potential destabilizing 
view that some people see this weapon bringing, and I am taking 
that onboard. But I have to do more study.
    Senator Feinstein. And you will look at its range, as well 
as the ability to abort it?
    Secretary Mattis. I will look at that, Senator.
    We also have to look at an issue that Secretary Tillerson 
and I are dealing with right now, which is the pretty clear 
violations of the intermediate nuclear forces treaty by the 
Russians. And what does that change? Basically, what are the 
implications of that?
    And also some concerns we have about the Open Skies Treaty, 
not that we want to walk away, but if Russia is, in fact, 
walking away, what are the implications to our deterrent 
posture, despite all the efforts by Russian and American 
leaders some years ago to try to get these treaties in place 
and make this part of the deterrent, in effect? And if they are 
walking way, I have to consider that as I look at this system.

                                  LRSO

    Senator Feinstein. I had the privilege, along with Senator 
Kyl, of going to Geneva when the Russian military was there on 
the agreement that we just approved a short time ago--I just 
got a block in my mind--with Russia, the last agreement, the 
New START Treaty. I saw the reduction and the reductions agreed 
to, and I felt we were on a very good track.
    I have talked to people in the military about the LRSO, and 
I would like to talk to you about what they tell me, not here, 
about the philosophy that they think is behind it, which I am 
not sure, for the cost, that we will end up with a practical 
deterrent.
    Secretary Mattis. I need to come up and see. I would be 
eager to get that perspective, ma'am, because I want to give 
the right kind of guidance to this posture review.
    Senator Feinstein. Thank you. I appreciate that.
    Senator Cochran. The time of the distinguished Senator has 
expired.
    The chairman recognizes the distinguished Senator from 
Missouri, Senator Blunt.
    Senator Blunt. Thank you, Chairman.

                     MILITARY FAMILY STABILITY ACT

    Secretary Mattis and General Dunford, very quickly I want 
to thank you for the attention you both have given to an effort 
I have been making, along with Senator Gillibrand, for the 
Military Family Stability Act. Both of your offices have worked 
with us to the point that I think we are now confident we can 
do this with virtually no budgetary impact but lots of 
flexibility for families that they do not currently have.
    My first meeting with Secretary Mattis after he was 
nominated for this job, he quickly got how important it was to 
do something for families.
    I think, General Dunford, when we discussed this earlier, 
you said your family has moved 20 times during your career. So 
if anybody would understand the challenges of moving and timing 
and how much difference flexibility would make, you certainly 
would as well.
    But I think we have worked to a point that we are hopeful 
to see that in the national defense authorization bill and have 
it in a way that it really will have no impact here.
    But if either of you would like to make any comments on 
that, I would be pleased.
    Secretary Mattis. Senator, we have looked at it. Initially, 
I was told it could not be cost-neutral. I said that is not 
good enough, go back and find a way to make it cost-neutral.
    With personnel costs continuing to rise, we have to keep 
them under control. I think we have a way forward on it. We may 
need a little legislative relief about an entitlement that 
appears to say we cannot do it this way, but we will work with 
you on this, sir.
    Senator Blunt. General Dunford.
    General Dunford. Senator, first, I just want to thank you 
for your advocacy for military families. At a time when the 
economy is improving and it is difficult to recruit and retain 
high-quality people, initiatives like this are going to send a 
very powerful message that we actually do care about them, and 
I hope that we encourage them to stay, despite some of the 
challenges associated with family life in the military.

                           NGA WEST FACILITY

    Senator Blunt. Well, I appreciate what you both have done 
to help us get to the point that I think we can solve that 
problem, not only the commitment of families but our investment 
in people who are serving and everything we can do to encourage 
them to continue to serve and to solve problems that we can 
solve. And I think this is one of them, and I hope we have 
found a way to do that.
    Secretary Mattis, and actually this could relate to both of 
you, I want to turn to a project that is vital to our national 
security. It is the construction of the NGA West facility in 
North St. Louis.
    The budget request this year includes robust funding to 
begin that construction. I know you have been supportive of it. 
I think there is one final area that we need to resolve.
    Department of Defense officials, particularly the Air 
Force, and the city of St. Louis, have been working on an 
agreement that would determine what environmental standards are 
necessary for the land transfer. I think we need to be sure we 
make this happen.
    Now, the Air Force tells me that they have teams of lawyers 
working around the clock to finalize this agreement. I think 
that is probably a stretch of how many people are working on 
this and how hard they are working on this. But we were 
supposed to have a final agreement by the end of April, and 
then a final agreement by the end of May. I would hate to miss 
another month.
    This is just simply, there was a change in who would 
actually be responsible for the property after every other 
decision was made, and then previous commitments about 
standards seem to get into conflict with what the new custodian 
and the Air Force thought they needed.
    We need to get this solved. Secretary, I know you are 
working on this. I know you do not want to have a meeting in 
your office about this with Senator McCaskill and I, and we do 
not want to come over either. But we need to get this solved.
    Secretary Mattis. On that score, I wouldn't want to see 
you, sir. I would want to see you any other time.
    But knowing I was going to be asked this, I checked on it. 
And they told me it was on track now for the latest timeline. 
But I am going to go back and double check here, so I can avoid 
the need for you to come see me.
    Senator Blunt. Well, if we want to see you, we want to see 
you on other topics.
    And this is an important facility. There is a lot of money 
in the budget request to get this started this year. But to get 
it started this year, we have to resolve this one last issue, 
which is highly resolvable. And I hope we see that. We need to 
see that happen before the end of this month.
    Secretary Mattis. Yes, sir. I am surprised that it has slid 
this far. Let me go back at it, sir. I thought this was the 
schedule, so I did not realize it slipped twice.
    On this one, sir, I do not have stress. I create it. Let me 
work on this for you.
    Senator Blunt. Thank you, Secretary.
    Secretary Mattis. This shouldn't be, frankly. We have dealt 
with this for a long time.
    Senator Blunt. I agree. I agree.
    Senator Cochran. The time of the Senator has expired.
    The chair recognizes the distinguished Senator from 
Montana, Senator Tester.

                      TROOP LEVELS IN AFGHANISTAN

    Senator Tester. Thank you, Mr. Chairman. I want to thank 
Secretary Mattis and General Dunford for being here today. I 
very much appreciate your service.
    I also want to start by associating myself with the remarks 
of the ranking member, that both of you are proven. Both of you 
are adults. And I support you for the same reasons, that you 
are the adult in the room. And I want to thank you very much 
for being there and offering some common sense.
    Secretary Mattis, the VA has just announced that they are 
going to be using the DOD (Department of Defense) platform on 
electronic medical records. I have no question around this. I 
just ask that you do what I think you would do anyway and make 
sure that we facilitate good communication between the DOD and 
the VA so this happens as quickly and as seamlessly as 
possible. That's all.
    You had talked in your opening remarks, Secretary Mattis, 
about the President giving you the authority to determine troop 
levels in Afghanistan. I think that is a good thing.
    You also concluded, I think yesterday, maybe in Armed 
Services Committee hearing, that we are not winning in 
Afghanistan right now. We are not winning in Afghanistan right 
now. The question is, how do you define victory? And how do you 
define when we get to a point where we can leave Afghanistan?
    Secretary Mattis. Senator, I believe what we have to do is 
get to a point that the Afghan security forces working for a 
government that can win the affection and respect of its people 
can carry out the security, so there are no havens for 
terrorists. And that is the bottom line.
    They are law enforcement. We still help them. I can imagine 
Interpol intimately engaged and us training, mentoring, even 
years from now. But that is what it would look like.
    Senator Tester. So is that achievable? Is that achievable? 
It has been 15 years in.
    And I always think back to the fall of the Soviet Union. 
Some people say the reason they went down as they did was their 
involvement in Afghanistan on the other side.
    The question is, is it achievable? This country has been at 
war for God knows how many centuries.
    Secretary Mattis. That is not the full history of the area, 
sir. For some of us who are my age, this was part of the hippie 
trail. Believe it or not, hippies used to hitchhike there, it 
was such a haven of agricultural peace and pastoral peace.
    I would tell you that the Soviet invasion completely had 
shaken that society to pieces. And putting it back together, we 
deal with implications from those days, plus a lot of other 
pressures on them now.
    But, yes, it is achievable. But the international community 
is going to have to hold with it. And when we reduce, we reduce 
based on conditions on the ground, not on an arbitrary 
timeline.

                           NATO AND ARTICLE 5

    Senator Tester. In that vein, and it was brought up earlier 
in some of the questions, the President's relationship with 
NATO, and I think that either--well, I think it was 
intentional, that he failed to recognize Article 5 of the NATO 
agreement.
    What is your advice to him on that? I mean, it looks to me 
as I look around that a lot of our traditional allies are being 
pushed aside. And in his particular case--not yours, his--that 
there is more of an embracing of folks who really want to do us 
harm.
    Secretary Mattis. That is not my impression, Senator. His 
trip to NATO was meant to send a message of the priority he 
placed on it.
    More recently in the Rose Garden, he stated clearly that 
Article 5, we are with it 100 percent. In front of both the 
House and Senate, he made a very clear statement of support for 
NATO. I think he said he was 100 percent for it there.
    I believe that, right now, NATO does not have any doubt 
about this.
    Senator Tester. Okay, so being 100 percent for NATO and 
being willing to step up when one of our allies is attacked, 
you feel confident that the President is on board with that.
    Secretary Mattis. Yes, sir.

                            DOD NOMINATIONS

    Senator Tester. Okay.
    Look, we have a number of positions that have not been 
filled, the Under Secretary of Intelligence, the Under 
Secretary for Policy, the list goes on and on. I believe that 
there are 53 Senate-confirmed positions at DoD, only five are 
filled. Eleven are nominated. The rest are empty.
    Have you spoken to the White House about filling those 
positions? Have you made recommendations on those positions?
    Secretary Mattis. Yes, sir. And if you read the newspaper 
as I read it, it looks more dire. I think, in terms of what is 
coming down the pike very, very shortly here, there are a lot 
more people in process.
    As you know, the Senate Armed Services Committee puts 
extraordinary attention to the ethical requirements to be 
there, probably the most challenging ethical standard in terms 
of removing even the appearance that someone could have a 
conflict of interest. Part of this is simply people having to 
divest of finances.
    It took me, and I was in the Marines for 40 years, sir, it 
took me an accountant and a lawyer and a stack of paper this 
thick to show that I did not have ethical conflicts. And I am 
pretty boring when it comes to my economic situation.
    So I will just tell you that it is a challenge, but we do 
end up with some varsity-level draft picks. I just point to 
Under Secretary Comptroller David Norquist sitting here with 
me. I am getting some varsity players on how to discipline this 
budget, sir.
    Senator Tester. Good to hear.
    Thank you for your service to both of you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The distinguished Senator from Maine, Ms. Collins, is 
recognized.

                              SOUTH KOREA

    Senator Collins. Thank you very much, Mr. Chairman.
    Secretary Mattis, I recently received a truly alarming 
briefing about North Korea. I was, therefore, very concerned 
about the news last week that you mentioned in passing, that 
the new government in South Korea will apparently be delaying 
the implementation of the THAAD missile defense system.
    How important is this missile defense system for defending 
both South Korean and American servicemembers, as well as the 
300,000 Americans living in Seoul?
    Secretary Mattis. Senator Collins, the THAAD system is a 
topline, superb system. It, I believe, is critical.
    It was a combined decision. It was taken by a previous 
administration. South Korea went through a bit of political 
turmoil. I believe there were campaign statements made that 
have impacted.
    But at the same time, we have not been asked to remove the 
system or its two launchers. We have several other launchers in 
country, in theater right now, or in Korea, and they have not 
been deployed.
    There are inside Korean Government concerns. They do not 
have concerns with us. They have made that very clear to our 
combined commander on the ground, General Brooks.
    However, they do have some questions about whether or not 
their environmental law was followed correctly, so they want to 
get the environmental impact statement done.
    But this is an internal administration--their body politic 
having an issue. It is not a military-to-military issue. And I 
think we are going to find a way forward. As you know, the 
President of South Korea is visiting here shortly, and we are 
trying to resolve this, just so we have clarity on the way 
ahead.
    Senator Collins. Thank you. I certainly hope that will be 
resolved soon.
    I want to associate myself with your imploring Congress to 
avoid continuing resolutions, do away with sequestration, and 
have more realistic budget caps. I believe that is absolutely 
essential to your ability to restore readiness to the level 
that is needed.
    In your five priorities, you mentioned reforming how the 
department does business. GAO (Government Accountability 
Office) has been critical of the department for proceeding with 
weapons systems before most of the design work is completed. 
And GAO points out that when the department proceeds before the 
design work is relatively stable, that it almost inevitably 
leads to cost overruns and other difficulties.
    Is that the kind of reform that you are considering as you 
look at the way that the department does business?
    Secretary Mattis. There is a host of reforms. That is one 
of them.
    For example, we may say that the technological maturity 
rate of something is simply not sufficient to gamble on it 
maturing as we build an aircraft carrier, for example, 
something like this. At the same time, we have to take some 
risk, because we do not want to turn something out that takes a 
year, 2 years, 3 years, and find it has already been outdated 
because we tried to kind of stop the clock on technological 
advances while it is going on.
    So it is a balancing act, but we have to do a better job, I 
think, of calculating the risk and making certain we are just 
not gambling.
    There is a difference in taking a risk and taking a gamble, 
and that is where we are taking this. And there are other 
reforms as well.

                    EUROPEAN REASSURANCE INITIATIVE

    Senator Collins. And finally, I just want to follow up on 
Senator Alexander's comments about the importance of the 
European Reassurance Initiative.
    Montenegro became the 29th member of the NATO alliance 
earlier this month. The Maine National Guard has a long-time 
State partnership with Montenegro and actually helped them get 
ready for ascension into NATO, something I am very proud of.
    And yet, the Russian reaction was very hostile and very 
provocative. Not only did they try to interfere with 
Montenegro's elections, but the Russians put out a statement 
saying that, in light of the hostile course chosen by 
Montenegrin authorities, the Russian side reserves the right to 
take retaliatory measures.
    That is truly provocative language, and I just want to 
encourage you to keep sending the right signals to our NATO 
allies. And I think the funding in the budget request for the 
European Reassurance Initiative, as well as continuing the 
State Partnership Program, is absolutely vital.
    And if you have time in 23 seconds to comment, that would 
be great.
    Secretary Mattis. I endorse everything you said. I think it 
points to, Senator, NATO is growing. If anyone wondered about 
NATO's relevance in this age, in the free market of nation 
ideas, they see this as a value to join NATO. And I think that 
that says a lot about why, if we did not have NATO today, we 
would create it, because it is fit for its time.
    Senator Collins. Thank you so much.
    Thank you, Mr. Chairman.
    Senator Cochran. The time of the Senator has expired.
    The chair recognizes that the distinguished Senator from 
Hawaii, Senator Schatz.

                    FREEDOM OF NAVIGATION OPERATIONS

    Senator Schatz. Thank you, Mr. Chairman.
    Mr. Secretary, General, thank you for being here.
    The United States Navy had not conducted freedom of 
navigation operations in the South China Sea for more than 6 
months from October 2016 to May 2017. I am glad that we have 
resumed them, but I worry about fits and starts and what kind 
of signaling that sends about our resolve, as China continues 
to violate and challenge international law.
    So two questions. Why was there a 6-month pause? And, 
secondly, what is our current policy regarding freedom of 
navigation operations?
    Secretary Mattis. Thank you, Senator.
    I cannot speak to the pause before January 22, obviously. 
But I can tell you that when I came in, I received from the 
chairman a recommendation to conduct a freedom of navigation 
operation in the South China Sea. I was the one who rejected 
it, and I said I want to see the plan for how we do this, not 
each one of them coming up as a standalone. I wanted to see a 
strategy.
    He provided that on very short notice. I authorized the 
freedom of navigation, those voyages to continue and get 
underway, and that is what you saw with the first.
    Now there is a program inside a coherent strategy to 
support Secretary Tillerson's view of foreign policy engaging 
in that part of the world.
    Senator Schatz. You do not anticipate any additional 
pauses?
    Secretary Mattis. This is our policy, sir. We will continue 
this. Could it change, if circumstances change? Of course.
    But right now, Secretary Tillerson and I, I give him the 
military factors, and we are in league together on this, so I 
do not think anything is going to change.

                 ENHANCE DEFENSE COOPERATION AGREEMENT

    Senator Schatz. Okay, thank you.
    On the U.S.-Philippine relationship, I think you will agree 
that the Philippines is one of our most important allies in the 
region, and we continue to make clear to the Filipino people 
that the United States-Philippines relationship is strong, and 
we cherish our personal and historical bonds, but we are 
worried about the tactics of President Duterte.
    I am wondering if you could talk about the tension that you 
have right now as you are trying to implement EDCA (Enhanced 
Defense Cooperation Agreement) and you have the challenges 
related to President Duterte's illegal crackdown under the sort 
of guise of counterterrorism, counterdrugs, that there are 
extrajudicial killings, which are contrary to American values 
and contrary to international law.
    So how do we continue our defense cooperation, which is 
absolutely necessary, but wall off any assistance that we may 
be providing, either technical assistance or real resources, so 
that we know that we are not a party to any of those 
atrocities?
    Secretary Mattis. Well, we will ensure that we are not a 
party to any of those atrocities, Senator. It is a matter of 
how we execute on areas where we have shared interests and 
requirement.
    You know that ISIS has moved against a city of 200,000 
people there in the southern Philippines, Marawi. We are 
providing surveillance support to the Philippine military as 
they go in to free the people there.
    But at the same time, we are very clear about where we 
stand on the issues you brought up, and we maintain the 
military-to-military relationship in clearly demarcated areas 
having to do with security.
    And we are working, by the way, with Indonesia, Malaysia, 
and the Philippines in a broader area of a maritime domain 
awareness effort to try and limit how much of this kind of 
terrorist activity can get into the Philippines with what we 
call the Sulu Sea area there.
    Senator Schatz. Thank you.

                   ASIA-PACIFIC STABILITY INITIATIVE

    The last question, since we last met, you have had a chance 
to learn more about the Asia-Pacific Stability Initiative 
proposed by Admiral Harris to have the munitions and equipment 
that they need to defend our allies and to fund additional 
exercises and build infrastructure throughout the Pacific AOR 
(Area of Responsibility).
    I know you mentioned it briefly at Shangri-La. I wonder if 
you could state for the committee how you view this initiative 
in the context of our Asia-Pacific strategy.
    Secretary Mattis. I will even put it in a global strategy, 
Senator, where this is a priority theater. We have to stand by 
our allies. We do not trade off allies for any single 
initiative with another country. And we make certain that what 
we are doing breeds a degree of confidence among our allies, 
our partners, builds partnerships.
    We have a number of exercises going on this week, actually, 
with navies from Japan, Australia, elsewhere, France, in the 
Pacific, just to send a reassuring, stabilizing message that it 
is a priority theater for our department.
    Senator Schatz. Thank you.

                    BALLISTIC MISSILE DEFENSE REVIEW

    Senator Murkowski. The Chairman has stepped out for just a 
moment and has recognized me to go next, so I will thank you 
both for your leadership. Thank you for your words here this 
morning.
    Secretary Mattis, you characterize in your testimony, not 
only today but previously, you characterize North Korea as the 
most urgent and dangerous threat to peace and security. Its 
nuclear weapons program is a clear and present danger to all, 
and its regime's provocative actions have not abated.
    Pretty strong words. As you know, we keep a pretty close 
eye on things in North Korea, given its proximity to Alaska. I 
know my colleague from Hawaii is equally attentive.
    But also in Alaska, as you know, we host Nation's ground-
based missile defenses.
    The Missile Defense Agency has a strong plan in place to 
improve our missile defense capabilities by 2020. That includes 
44 ready-to-fire ground-based interceptors by 2017, as well as 
the land-based discrimination radar.
    And we have had some good conversations about the strength 
of the program that we have in place. I am encouraged that the 
Ballistic Missile Defense Review (BMDR) has commenced, but I am 
also concerned that we may have a lag between the review, the 
policy, and of course, the budgeting and appropriations, and 
then, ultimately, the construction.
    So if you can speak for just a moment this morning about 
your views as to how we can provide for that robust defense 
that we have based at Fort Greely? So whether within the 
confines of the BMDR or outside, do we need additional silos 
there at Fort Greely to provide our missile defenders with 
greater capability against the threats that, as you have 
clearly admitted, are not abating at this time?
    Secretary Mattis. Senator, this is a situation that is 
developing, in terms of our adversary's capability and the 
capacity. Right now, I am confident that we have the right 
number. I am also confident we do not have the right number for 
the future.
    The review will help us come to you and say here is what we 
can justify. As you know, we are coming in this year asking for 
$700 million more dollars for this area, and I want to be able 
to justify every one of these dollars. I think this is going to 
be an area that, when we get done, the Ballistic Missile 
Defense Review will make a strong argument that we have to have 
more capability here.
    Is it more launchers as well? Or is it a rapid reload 
capability? So I have to go through some work first before I 
bring you simply a large bill.
    But I am very confident this threat is not going to get 
less in the future.
    Senator Murkowski. I appreciate that. We will look forward 
to the outcome of that review.
    Do you also worry about this lag, recognizing that we do 
want to be responsible and ensure that we are doing this right? 
But I am concerned that things around here just take a little 
bit longer than we would like or how they are laid out on 
paper.
    Secretary Mattis. I will ask the chairman to comment. We 
also have a naval leg of this, as you know.
    Senator Murkowski. Right.
    Secretary Mattis. Let me ask the chairman to give some of 
the military flavor. If that does not answer your question, I 
will get you more a detailed answer.
    Senator Murkowski. I appreciate that.
    General Dunford. Senator, a couple things.
    One is, we are confident that the projected capability that 
we have will deal with the North Korean projected threat for 
the foreseeable future. As you know, it is also part of a 
layered defense system that includes the radar systems and the 
naval capability that the Secretary alluded to.
    I also would say that dealing with the North Korean threat 
has to be about more than just the defensive capabilities as 
well. So we continue to develop other capabilities that we can 
talk about in a classified venue, to help us deal with these 
challenges.

                                 ARCTIC

    Senator Murkowski. I appreciate that.
    And then, very quickly, I always bring up the Arctic. I 
think you are used to that by now. But I continue to press the 
question of whether the United States is capable of projecting 
military force and maintaining domain awareness in the Arctic. 
My purpose in raising the subject is not to identify any 
vulnerabilities out there but to really ensure that the focus 
in this very important part of the world is not lost as we are 
making very difficult defense choices.
    We had General Scaparrotti in the Military Construction 
Subcommittee a few weeks ago. I asked him about Russia's 
intentions in the Arctic. He said our concern is that rather 
than the Arctic being a place that is for commerce, stable 
freedom of maneuver, in accordance with the international laws 
as adhered to, that they could position themselves in a place 
to control the Arctic and that sea lane.
    So I do not have any idea whether we are in a position to 
counter Russia's ambitions, but I am trying to make sure that 
we can get the department's attention on identifying our 
strengths, our weaknesses, and any gaps that may exist. We have 
asked for reports. So I do not know whether we need to ask for 
an unfunded priority list of Arctic-related needs, but know 
that I am going to continue to press and hope that we can get a 
little greater clarity here.
    Secretary Mattis. Senator, I appreciate you keeping an eye 
on this, because with the number of priority theaters and 
problems we have around the world, we could lose track of it.
    I share General Scaparrotti's concern. It is not all one 
way. As you know, we have an undersea force, a submarine force 
that can operate anywhere, to put it bluntly. But we also work 
closely with either allies, NATO, Canada, all the way across 
from Europe over, and that has a significant Arctic layer to 
it.
    It is actually an area where we can do some cooperation 
with the Russians. You have to go all the way up there to find 
a place where you can do anything with them, but on search and 
rescue or something.
    But so far, we have not found the Arctic to be a place 
where we can make much progress with Russia either, like 
everywhere else.
    So for right now, we have to consider the military 
capabilities necessary for what is becoming a year-round 
transit route with the warming up there.
    Senator Murkowski. I look forward to more conversations on 
that.
    Thank you, Mr. Chairman.
    Senator Cochran. The distinguished Senator from South 
Carolina--oh, sorry. The Senator from Rhode Island is next.
    Senator Reed. We are often mistaken for each other, Mr. 
Chairman.
    [Laughter.]
    Senator Cochran. I apologize to both parties.
    Senator Reed. Thank you, Mr. Chairman.

                              TROOP LEVELS

    Mr. Secretary, you indicated that you have received 
delegated authority to set troop levels in Afghanistan, and I 
am trying to understand what that means. That you can make 
adjustments to forces without the President's permission? Or 
you will make a recommendation to the President and he will 
approve it? Usually, these numbers have not been set by 
delegated authority.
    Secretary Mattis. Senator, the President delegated the 
authority to me to turn the numbers up and down, as necessary. 
But this came at the end of a very long discussion, months of 
discussion with the President, as we looked at what the 
strategy is that would then guide how those numbers are 
decided.
    In other words, it is not that I have been given some carte 
blanche to draw up a strategy or a number that is out of step 
with the strategy. The strategy, we are working on the 
interagency. We will present that to the President probably 
within the next several weeks, and that will guide me.
    But you will notice I had the same authority in Iraq and 
Syria, and I would see it handled in the same way, consistent 
with the State Department-led foreign policy that carries out 
the President's foreign policy. And the military factors and 
the security aspects of it will be my responsibility to answer 
to the President on.

                                  NATO

    Senator Reed. Afghanistan is a NATO effort. Will NATO 
increase their forces?
    Secretary Mattis. I am confident that some of the NATO 
nations will add, if we do. Yes, sir. They respond to our 
leadership.
    Senator Reed. Have you made that request?
    Secretary Mattis. I want to get our strategy right first. I 
have been meeting with my counterparts in the NATO nations. And 
a number of them, the men and women who lead those military 
departments, have indicated they are--and not just NATO 
nations, other nations as well that are troop contributors, 
have indicated they will add, if we do.
    Senator Reed. Has Secretary Tillerson been given delegated 
authority to control his resources in the region?
    Secretary Mattis. I do not know. He seems to control the 
State Department resources.
    We meet weekly, sir. And when we talk, he is not looking 
over his shoulder. We carry out the President's foreign policy, 
obviously, me with the military aspects. But he appears to have 
all of the authority--I defer to him.

                           REGIONAL APPROACH

    Senator Reed. As you point out, and again, the question 
reflects there has to be unity of effort, particularly since 
one of the issues, among so many, are the behaviors of adjacent 
countries, where particularly the fact that some countries 
provide sanctuary for forces, particularly the Haqqani network. 
Part of the strategy is going to take steps to limit these 
sanctuaries?
    Secretary Mattis. Senator, part of the frustration that you 
heard yesterday in the hearing was that we are including a 
regional approach, or implementing a regional approach, and 
that is more difficult. The complexity goes up significantly 
when we do that. But, yes, sir. That is exactly----
    Senator Reed. Just a comment. It seems to me that these 
issues are of such importance, with all due respect, and 
include an across-the-government approach, that a delegation, 
in this instance, of authority, would that inadvertently or 
unwittingly take the President out of critical decisions that 
he should make? Or deny him information he should have, since 
he is not in that immediate loop?
    Secretary Mattis. I do not keep any secrets from the 
President, Senator. Further, everything I have seen so far 
between Director Pompeo, Director Coats, Secretary Tillerson, 
and myself, there are frequent meetings. We go into a great 
deal of detail. And the President is keenly interested, not in 
all the tactical details, but in getting the strategy right, 
and knowing enough of the tactical details that he is informed. 
He is a very active participant when we sit down with him.

                        AMERICAN PUBLIC SUPPORT

    Senator Reed. And, Mr. Secretary, you pointed out that we 
have been at war for 16 years, the first instance that we have 
never relied on conscription to involve the greater American 
public in this effort. The burden has been borne by hundreds of 
thousands of men and women in uniform and their families, the 
essential burden.
    You are a historian. Have we ever been engaged in an 
extended period of warfare when we have not asked the American 
people to support it with revenue?
    Secretary Mattis. I think the engagements after the Civil 
War for 40, 50 years between the U.S. Cavalry and the Native 
Americans. I think to some degree, except for conscription, the 
Vietnam War, I think, was run as a guns and butter, not a guns 
or butter, event.
    Senator Reed. But we were paying for both the guns and the 
butter.
    Secretary Mattis. That we are, sir.
    Senator Reed. Thank you.
    Secretary Mattis. Yes, sir.
    Senator Cochran. The time of the Senator has expired.
    The chair now recognizes the distinguished Senator from 
South Carolina, Senator Graham.

                         TROOPS IN AFGHANISTAN

    Senator Graham. Thank you, Mr. Chairman.
    First, I would like to congratulate the President for 
having the vision and, quite frankly, good judgment to allow 
Secretary Mattis, in consultation with a very good military 
leadership team, to set the troop levels. What a novel idea for 
the Commander in Chief to turn to his commanders and say, what 
do you need to win? Senator Durbin started this off with, I am 
glad you are there because Trump does not know a whole lot. I 
am glad that Trump is smart enough to understand that you know 
more than he does, and he is empowering use to make us safe. 
General Obama was a pretty lousy general. He withdrew all of 
our forces against sound military advice in Iraq. He got to 
8,600 because he just picked a number. He could have helped the 
Free Syrian Army when they needed our help the most, and there 
would have been no massacre of the Syrian people. So that is 
just my 2 cents worth. I am really pleased that this President 
is listening to those who actually understand the war and are 
dedicated to winning it.
    So let's dig in a little bit. Do you agree with me, General 
Dunford, that every American in Afghanistan is an insurance 
policy against another 9/11 originating from Afghanistan 
against the American people?
    General Dunford. I do, Senator. I suggest the fact we have 
not had another 9/11 to be due to the pressure that we put on 
the Al Qaeda network that has been in that region since 9/11.
    Senator Graham. And unfortunately, the international 
terrorist footprint in Afghanistan has grown over time, right?
    General Dunford. It has become more diverse, for sure, 
Senator.
    Senator Graham. And that is why we need more 
counterterrorism operations to protect the homeland?
    General Dunford. That is right. Our mission in Afghanistan 
is balanced between a counterterrorism mission and growing the 
Afghan----
    Senator Graham. Can you see a scenario, General Dunford and 
Secretary Mattis, where the Afghan people lose to the Taliban 
and we win?
    Secretary Mattis. No, sir. We saw that circumstance in the 
months, year, before 9/11, and we saw the outcome.
    Senator Graham. Do you agree with that?
    General Dunford. Certainly not, Senator.
    Senator Graham. And both of you are dedicated to making 
sure that never happens again, as much as possible?
    Secretary Mattis. We are sworn to defend this country, sir.
    Senator Graham. And so you are going to make this decision 
based on what is best for America, and it is best for America 
for us to succeed in Afghanistan? Is that correct?
    Secretary Mattis. It is, sir, and for the international 
community that our economy depends on.
    Senator Graham. And all of the people going are volunteers. 
We do not have conscription.
    Secretary Mattis. Yes, sir.

                             SEQUESTRATION

    Senator Graham. We should be grateful for these men and 
women who have been there multiple times. I think everybody 
here is grateful, but being grateful is not enough.
    General Dunford, you said that we are losing our advantage 
against enemies throughout the world. Do you agree with me that 
the main reason has been sequestration?
    General Dunford. It has been a combination of things. I 
think the main reason is sequestration, but I would also say 
that the enemy has taken advantage of our focus on violent 
extremism and our budget difficulties to grow their own 
capabilities, so----
    Senator Graham. As we are looking one way, they are growing 
the other way.
    General Dunford. That is exactly----
    Senator Graham. It has nothing to do with the caliber of 
the men and women. We are not losing our advantage because our 
soldiers have deteriorated. It is quite the opposite. We have 
the best force we have ever fielded in the history of the 
United States. Do you agree with that?
    General Dunford. I do, Senator. It has been about our 
investment portfolio, not about our quality of people.
    Senator Graham. So Congress can fix this, if we choose. Do 
you agree?
    General Dunford. Senator, I can. And not only that, today, 
we still retain a competitive advantage over any single 
adversary. We have time to turn the trend around.
    But I would assess that, by the end of this 5-year program, 
we are going to find ourselves in a position where we are at a 
competitive disadvantage in several areas.
    Senator Graham. So if we go to 603 that is a step in the 
right direction. Is that right, Secretary Mattis?
    Secretary Mattis. With more assets, we do more, yes, sir.

                           ADDITIONAL FUNDING

    Senator Graham. Okay. There is an unfunded request, 
priority request, of $30 billion. Would it be wasteful spending 
if we gave you that additional $30 billion?
    Secretary Mattis. I believe it is actually $33 billion, 
sir, just to round it off a little bit there.
    Senator Graham. That is what I like you.
    Secretary Mattis. But the priorities are excellent, sir. 
The priorities we have in the base budget are the right ones. 
If we get more money, that is the right place.
    Senator Graham. Well, we have a chance to go beyond 603. 
Based on the priority needs of the military, I hope we will 
take that chance.

                             RESIDUAL FORCE

    As we look out over the coming 5 to 10 years, General 
Dunford, very quickly, after we defeat ISIL, and we will, in 
Iraq, with our Iraqi security partners, do you believe it is in 
our interests to leave a residual force this time, if the 
Iraqis will accept it?
    General Dunford. I do, Senator. I think it is important to 
point out, not only for enduring commitment in the region to 
advance our interests, but I also believe that, one, there is 
more fighting to be done and the Iraqi security forces will 
continue to have to develop their capabilities.
    Senator Graham. Finally, you are not looking for a fair 
fight. I am not either. So do you both agree that modernization 
has been neglected because of operational needs, and now is the 
time to modernize the force to win the fights of the future and 
deter war if we can?
    Senator Cochran. The time of the Senator has expired.
    The chair recognizes that the distinguished Senator from 
Washington, Ms. Murray.
    Senator Murray. Thank you very much.
    Thank you both for being here.

                            HANFORD CLEAN-UP

    Secretary Mattis, greetings from your home State of 
Washington. Good to see you again.
    Secretary Mattis, let me start with a Washington State 
question. Communities in our home State are no strangers, as 
you know, to long-term environmental cleanup efforts.
    Nuclear weapons production at Hanford helped our country 
win World War II and later the Cold War. But after years of 
cleanup, much work still remains to fulfill our government's 
legal and moral obligation to our Tri-Cities community.
    Today, communities in our State from Oak Harbor to Airway 
Heights, are concerned that they too will be dealing with 
groundwater contamination associated with firefighting foam 
used as the military aviation facilities for years to come. Oak 
Harbor, Coupeville, Airway Heights, and communities actually 
around the country are being directly affected by groundwater 
contamination today, and I am worried about not getting enough 
resources to address this problem.
    So I wanted to ask you, while you are here today, can you 
work with me and our communities in Washington State to take 
the steps necessary to investigate and clean up this 
contamination?
    Secretary Mattis. Absolutely, Senator. Those are all names 
of towns I either grew up in or have a close affiliation with, 
so I understand the human dimension very well.
    Senator Murray. It is of deep concern to us. If you could 
provide us quarterly updates to this committee regarding the 
department-wide response to groundwater contamination, I would 
really appreciate it.
    Secretary Mattis. Okay. We will do so, ma'am.
    Senator Murray. Thank you.

                         RECRUIT MEN AND WOMEN

    Let me ask a broader question. I will start with you, 
Secretary Mattis.
    As we begin to expand the end-strength of the military 
services again, I want to take a minute to focus on the 
eligibility of the general population our services are drawing 
from. There have been several reports in recent years, 
including one released in May by the Council for a Strong 
America, that estimate that the percentage of 17- to 24-year-
olds ineligible for military service to be as high as 70 
percent.
    Military ineligibility, as you know, for this group 
collectively stems from obesity, drug abuse, academic 
ineligibility, criminal history. And these are not problems the 
defense budget, of course, is intended to or generally 
permitted to address.
    But let me ask you, talk to us a little bit about the value 
in making sure we are investing in domestic priorities like 
education and healthcare to help make sure that we have young 
men and women ready to serve in our military.
    Secretary Mattis. I think it is essential that, for the 
military and for the health of the society just in general, we 
address these issues, Senator.
    In terms of the military, I wonder sometimes if it is not 
nonquantitative aspects we have to enhance, that there are 
other things that we should be doing. I have gone back in 
history to find what they did about the inability to recruit 
people, young men, because their teeth had rotted out back 
before World War I. I mean, there is a whole raft of history 
lessons that we can look at here.
    But I agree with you. Society has to breed enough young men 
and women who are fit enough in body, mind, and spirit, 
physically and mentally agile, and spiritually, I would call 
psychologically strong enough to take on the extraordinary 
efforts that we know we are going to require of them if we send 
them into the battlefield.
    Senator Murray. General, can you comment?
    General Dunford. Senator, I think what you are alluding to 
is a really important point, and that is the strength of the 
United States military is a direct reflection of the strength 
of U.S. society.
    Senator Murray. Okay. Thank you very much. This is 
something that I think we need to continue to focus on, to make 
sure that we have a strong military in the future.
    As we see decreased budgets here and decreased investments, 
it is something I am deeply worried about, so I appreciate 
that.
    Thank you very much, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The chair recognizes the distinguished Senator from Kansas, 
Mr. Moran.

                                BRIGADES

    Senator Moran. Mr. Chairman, thank you very much.
    Chairman and Secretary, thank you very much.
    I was able to visit in this setting not too many days ago 
with General Milley. I wanted to start this conversation by 
talking about the unfunded requirement list that includes $3.1 
billion to increase your end-strength levels beyond the fiscal 
year 2017 NDAA (National Defense Authorization Act) mandate. I 
want have a conversation about how those brigades will be 
divided. What kind of brigades do we need?
    I asked this of General Milley, and his indication, and my 
paraphrase is, we are probably going to need to rebalance the 
force with additional armor capabilities. Assistance brigades, 
we are going to introduce those. The new threat environment I 
assume in your assessment means that we are going to need to 
rebalance those brigade structures.
    With the Russian aggression, our reassurance efforts, the 
conversation this morning about Afghanistan, I do know that 
back-to-back armor brigade combat team deployments to Europe is 
occurring. I know that the Big Red One in Kansas is part of 
that. We will have 4,000 of those soldiers with the second BCT 
to Europe this fall.
    What do you believe, I guess, Mr. Secretary, is the right 
mix of light armor, light attack armor, advise and assist 
brigades? And consequently, where will the BCTs acquire 
training?
    Secretary Mattis. Those brigades will be joining the 
general-purpose force. So what we do is we look at what is a 
threat, at best we can determine.
    I will ask the chairman to give his thoughts. I will 
probably have to take this one for the record, Senator.
    But I will just tell you, sir, that as we put this proposal 
forward, if we do not remove the Budget Control Act caps, and 
we bring those troops in, the only way we will be able to pay 
them 2 years from now is by stopping, again, modernization. So 
there is a danger here to even discuss this, if we do not look 
at the broader budgetary horizon.
    But to specifically answer your question, chairman----
    Senator Moran. You were very successful in using my 
question to make your point one more time.
    General Dunford. Senator, when we talk full spectrum, what 
we are really saying is that the United States of America, 
given our security challenges, cannot prepare for Russia and 
China or violent extremism. We have to prepare for all of those 
challenges.
    So General Milley and I have had this conversation about 
what the Army ought to look like. General Milley has sat down 
with the Secretary and spoken about that.
    The two areas that he highlighted in the conversation with 
you are the two areas that we have found now to be very 
stressed.
    One is armor brigades. Even the rotation now, as you know, 
it is a pretty tight turn. What that impacts is the amount of 
time our soldiers are home. But it also affects the amount of 
training that they are able to do across the spectrum. Right 
now, even our armor brigades have been probably more singularly 
focused on violent extremism and the challenges in Syria and so 
forth than we would like to have.
    So increasing the armor capacity is something that General 
Milley has spoken about.
    In terms of the advise and assist brigades, that is an 
initiative that the Army has been working on now for a couple 
years. General Milley's leadership has kind of pushed it over 
the goal line. He briefed the Secretary on it very shortly 
after the Secretary came in, so that the Army had specific 
units to meet what we believe to be an enduring requirement to 
grow partnership capacity.
    Our methodology for dealing with the violent extremism 
problem, in particular, is to train local forces, so they can 
assume responsibility for security in their countries. Those 
advise and assist brigades are designed exactly to do that.
    I would emphasize one point the Secretary made, and that is 
our caution in growing capacity now without certainty about 
what the next several years will be. In other words, the worst 
thing we could do now is grow capacity and then not have the 
funds available to properly train and equip those units.
    I do believe that we will have to grow. I think the defense 
security review that the Secretary will lead will indicate a 
need to grow in capacity. I think the areas that General Milley 
identified are certainly going to be reinforced by that study.
    But the one experience that both Secretary Mattis and I had 
was, when we both served as lieutenants and captains, we had 
bigger forces than we were able to provide adequate leadership, 
adequate training, and adequate equipment.
    So I would just say balance means two things. It means 
being prepared to deal with threats across the spectrum. It 
also means that we have a balance in our training, equipment, 
and personnel to make sure that the units are whole.

                           NEW ATTACK FIGHTER

    Senator Moran. Let me just highlight, in the 20 seconds I 
have remaining, I want to be able to say this, because I 
recently took a backseat ride in a light attack fighter, the 
Scorpion, over the skies of Kansas. And I want to highlight for 
you this issue that we are going through a process of a new 
attack fighter developed by the private sector and would want 
you to respond, perhaps take one for the record, about its 
value to the entire military.
    At the moment, there is a bit of a focus by the Air Force, 
but I have the view that it has a value to a broad array of our 
military efforts.
    Secretary Mattis. Yes, sir. We are on board with it. The 
first test was done out at CENTCOM, and I am keenly aware of 
that test. We are watching it closely. It has a lot of promise.
    Senator Moran. Thank you, sir.
    Senator Cochran. The time of the Senator has expired.
    The Senator from New Mexico, Mr. Udall.
    Senator Udall. Thank you, Chairman Cochran. I really 
appreciate this hearing.
    Thank you both for your service. I really appreciate you 
being here today.

                                  AMUF

    As both of you know, U.S. troops are now deep in Syrian 
territory, and the last time you testified before this 
committee, Secretary Mattis, you stated that we had not invaded 
Syria. You stated correctly that ISIS does not honor these 
borders, and our forces are in pursuit of ISIS.
    But since then, U.S. troops continue to operate within the 
internationally recognized borders of Syria and now have even 
launched attacks against the Assad regime itself.
    Without an AUMF (Authorization for Use of Military Force), 
aren't we risking further mission creep and involvement in the 
Syrian civil war? If another country, imagine the United 
States, if another country had troops in the U.S. without our 
permission and was training military groups to attack our 
government, wouldn't we obviously consider that an invasion and 
a declaration of war?
    Section 9019 of the defense appropriations bill that 
governs fiscal year 2017 includes language prohibiting the use 
of funds in violation of the War Powers Act ``for the 
introduction of United States armed or military forces into 
hostilities in Syria.''
    We need to seriously consider whether our troops are in 
Syria legally. And if not, Congress needs to consider an AUMF 
so that the people of the United States have a say through 
their elected representatives whether U.S. forces should be 
deep in Syrian territory.
    And my question, Secretary Mattis, is, is there a risk of 
U.S. forces becoming involved in further engagement with Assad 
regime forces in Syria? And if so, do you believe that 
congressional authorization is needed?
    And I would just note there, Reuters just reported an hour 
ago that, in a southeastern desert hotspot in Syria, we have 
expanded our forces. So we are dealing with a very fast 
developing situation.
    Secretary Mattis. Senator, our forces in Syria are engaged 
in advise and assist missions, as you know, with the Syrian 
Democratic Forces and moving against Raqqa.
    There is a legitimate reason for us to be there. Syria, the 
regime, lost control of this area to an enemy that has pledged 
to come after us, has conducted attacks against Brussels, 
against Paris, against Istanbul.
    This enemy, I think, has to be confronted. I think the 
Commander in Chief has the authority to do that. I cannot get 
into whether or not, the legality--I am not a legal scholar, 
sir. I do not want to make believe I have an expertise that I 
do not.
    However, the only time we have ever engaged Assad's forces, 
other than for the use of chemical weapons, the only time we 
have engaged them is in legitimate self-defense. And we believe 
that the Russians did the best they could to dissuade the 
Iranian-led Assad forces from doing what they did on those 
occasions. The Russians were unable to prevail.
    We maintain a very good deconfliction line with the 
Russians, which shows that this is understood that we are there 
for one reason, and we will simply continue to try to avoid 
this.
    But you are right. There is always the potential for 
something like this, and we do our best to avoid it and reduce 
the chance of it, and work with the Russians deconflicting this 
sort of thing, not coordinating, but deconflicting.
    Senator Udall. And I believe, Secretary Mattis, you said 
several times in testimony the necessity for an AUMF, and the 
Congress should play a role here, which I think----
    Secretary Mattis. I have no reservation about that, but I 
am a separate----
    Senator Udall. I am sure General Dunford feels the same way 
on that, I imagine. Yes?
    General Dunford. I do, Senator. I am on record several 
times as saying that I think that would be a very powerful 
message to the force, that they had the full support of the 
American people through the Congress.

                              AFGHANISTAN

    Senator Udall. While I was gone, you answered--and sorry to 
have to shuffle committees--several questions on Afghanistan, 
about winning and what it looked like, and all of that. And I 
hope, and this really is not a question, but in how you are 
approaching that with Secretary Tillerson, that we try to find 
a solution, because I think many times various generals have 
said this is not going to be a military solution. We are going 
to need to have military action and then follow up with a 
political solution.
    So it seems to me that the two working together are going 
to have to come up with something there. I hope we do not just 
focus on a surge, as that is going to be it.
    Secretary Mattis. Senator Udall, we have a strategy that 
will involve reconciliation as fundamental, knowing that all 
wars have to end sometime. And what can we do to use the 
military and all other means to hasten that end?
    That is our goal. But, as you know, it takes two to tango, 
and we are up against a pretty vicious enemy in terms of their 
willingness to sit down at a reconciliation table, unless they 
are disabused of the idea they can win through violence.
    Senator Udall. Thank you so much. I really appreciate it.
    Senator Cochran. The time of the Senator has expired.
    The chair now recognizes the distinguished Senator from 
Montana, Mr. Daines.
    Senator Daines. Thank you, Mr. Chairman.

                             NUCLEAR TRIAD

    Gentlemen, thank you both for appearing here today.
    Today happens to be Flag Day. On this day in 1777, our 
Founding Fathers chose this symbol to represent freedom and 
liberty around the world. Over the past 240 years, more than 41 
million servicemembers have carried that symbol in harm's way 
as a beacon of hope in the face of tyranny and oppression. As a 
son of a marine, I value the sacrifice of every man, every 
woman, who wears our Nation's cloth and serves under our flag. 
Anytime someone desecrates our flag, they exploit the 
protections of our Constitution. I agree with President Trump 
that the law should prohibit such conduct. This afternoon, I am 
going to introduce legislation setting our Nation's flag apart 
as a protected symbol worthy of honor and respect. I carry this 
forward on behalf of many, many of my veterans back in Montana. 
Thank you both for your service and leadership under our 
Nation's flag to protect all for which it stands.
    Gentlemen, when you appeared before this committee in 
March, we discussed the strategic importance of maintaining a 
fully modern nuclear triad. I am very pleased the Air Force is 
taking action to replace our aging infrastructure across 
missile fields, such as the 50-year-old weapon storage area at 
Malmstrom Air Force Base.
    You reflect on the aging infrastructure. President Kennedy 
would have been 100 years old in the last part of May, May 
29th. Alpha-06, which you can still drive by today, 
affectionately known as Ace in the Hole that Kennedy had during 
the Cuban Missile Crisis that was October 1962.
    I won't tell you how old I was in October 1962. I will just 
tell you, I was not very old. You can measure it in weeks. It 
has been a long time.
    So I am glad to see the infrastructure upgrading that we 
planned here with GBSD.
    This new nuclear weapon storage facility meets 21st century 
security and logistical requirements necessary to sustain the 
force for decades to come. It is going to be in close proximity 
to an 11,500-foot runway, which is able to support current or 
future nuclear bomber flying missions and is protected by 341st 
Security Forces Group.
    Secretary Mattis, I will tell you, I am a bit concerned 
about a round of BRAC that is built in the budget here at this 
time, until we have a clearer picture of how the emerging 
capabilities like GBSD, as well as the B-21, will be fielded.
    At this juncture, how would a commission account for 
acquisition decisions that have not yet been made to ensure the 
investments that we are making today are not wasted?
    Secretary Mattis. Senator, the first thing we would do is a 
lot of this can be forecast with a fair amount of precision, 
but we would also have to have a shock absorber that we would 
not sacrifice. In other words, we would accept there would be 
some excess capacity simply as an insurance policy.
    So what we would propose is perhaps places that are now 
surrounded by residential areas in the East where you can no 
longer train, you can simply no longer use them, places like 
that that we would not use even if we expand the military 
significantly under mobilization, those would be the areas that 
we look at first.
    Also, we would look at areas where we could accrue a 
benefit earlier than 10 or 20 years. We would want to try to 
find places where, if we got rid of them within 5 years, we are 
accruing an annual benefit from them.

                               HELICOPTER

    Senator Daines. You know, we have a great MOA there, by the 
way, east of Great Falls across the northern part of Montana 
that we do not have to worry a lot about a lot of residential 
areas. Mostly it is mule deer, antelope, and elk.
    So anyway, it is a great treasure and asset here for 
protecting our national security.
    Secretary, in March, you recognized the need for a proper 
helicopter to provide lift for our security forces in the 
missile fields, an estimated 2021 delivery date based upon 
funding availability in the budget. Since then, Congress has 
provided the Air Force a $75 million increase in procurement 
funding.
    Yet I understand Secretary Wilson recently testified that 
the Air Force will stick to the 2021 timeline with a 
solicitation to develop a new aircraft sometime next month.
    My question is, Secretary, I firmly believe we can do 
better than 2021 to provide our security forces with a proper 
helicopter. Could you provide an update on the UH-1N 
replacement and why the department might not be pursuing a more 
ambitious goal?
    Secretary Mattis. Let me get back to you for the record, 
sir. I share your belief that that helicopter has to be 
replaced. I would like to replace it sooner. Obviously, we 
compete against a whole lot of priorities. But let me get you a 
better answer than an in general or in theory answer, sir.
    Senator Daines. Okay.
    Gentlemen, thank you both for your service.
    Senator Cochran. Senator Baldwin.
    Senator Baldwin. Thank you.
    Senator Cochran. You have not spoken yet.
    Senator Baldwin. That is correct.
    Senator Cochran. The floor is yours.
    Senator Baldwin. Thank you. I appreciate that.
    Thank you both for your service and for spending a lot of 
time on Capitol Hill this week. Maybe I will be the last 
question for a while.

                           COUNTER-ISIL FIGHT

    Secretary Mattis, when you last appeared before this 
committee in March, you talked about where the administration 
was in terms of putting together its strategy for our counter-
ISIL fight. Now it is 3 months later, and you are asking for 
$13 billion in fiscal year 2018 funding for that effort.
    My question remains, what is the overarching strategy here? 
I have a couple central concerns in that regard that I want to 
ask you about.
    First, as you both noted, this fight cannot be won by 
military force alone. So how can you assure Wisconsinites and 
other Americans who have legitimate concerns about terrorism 
that the administration has a properly resourced plan not only 
to destroy ISIL's capability and ability to conduct external 
operations but also focused on creating a durable political 
solution in Iraq and Syria that addresses the root causes of 
terrorism and instability?
    The second concern is about the potential for repeating 
mistakes of the past. I want to associate myself with the 
comments of Senator Udall a few moments ago, but I would like 
to know if the administration has a strategic framework that 
clearly lays out measurable goals, operational limitations, and 
benchmarks for success of our counter-ISIL effort, and what 
guardrails are in place to avoid dangerous escalation in a 
region with so many actors and so many competing alliances.
    Indeed, the lack of a regional strategy looks more 
concerning every day. The latest example being the situation in 
al-Tanf, Syria, where U.S. forces have already engaged 
militarily multiple times with pro-Syrian regime elements, to 
possibly include Iranian and Russian personnel.
    So, Secretary Mattis, how do we keep this from spiraling 
out of control?
    Secretary Mattis. Your explanation or your overview of a 
very complex situation is one that former Secretary of State 
Kissinger advised us on by saying it is the most complex that 
he has ever seen. As you know, he is a pretty big standard-
bearer on having to deal with diplomatic complexity.
    Our overarching strategy is to destroy ISIS's physical 
caliphate. That has to happen. That is from where they have 
launched the external attacks that you have seen in Brussels 
and Paris, and I can go on and on. It is also building--it was 
building their finances and their recruiting. People were 
rallying to them.
    By the way, they are now having a higher desertion right, 
it appears, than they have a recruiting rate, which is 
indicating, when we go after them in the physical caliphate, 
what impact that has on their duration as a terrorist outfit.
    In that regard, we have changed our tactics and our 
operational arc to surround them first. You see that now in 
west Mosul. They are surrounded in Tal Afar. Raqqa was 
surrounded, as of about 10 days ago. And the SDF crossed the 
line of departure in the assault last Thursday, I believe it 
was.
    And as we push them out of there, we surround them first. 
The foreign fighters cannot get home. So part of this, because 
the foreign fighters are the strategic asset that worries 
people in Paris, in Tunisia, in Detroit, in the Philippines, 
and elsewhere, make certain they do not get out.
    Diplomatically, the Secretary of State ran a conference 
here 2 months ago. Sixty-six nations showed up, plus Interpol 
with a key role of tracking people who try to travel around the 
world to do these kinds of acts, passing information to police 
forces, plus European Union, Arab League, and NATO now. In that 
conference, we got commitments. I would say 85 percent of it, 
Senator Baldwin, was focused on post-combat. What do you do 
after the combat? We do have 24 nations that are contributing 
combat forces as well.
    But Secretary Tillerson is setting the conditions that we 
do not simply get rid of this outfit, and we have another 
problem coming up.
    Internationally, we also have additional efforts going on 
from the Philippines. You saw President Trump's trip to the 
Middle East where he is trying to align a number of disparate 
states into a coherent counterterror organization. It includes, 
by the way, deprogramming, basically using religious leaders to 
disabuse people that the way to carry out their religion is 
through violence. That is a very well-resourced now, finally, a 
very well-resourced effort that they basically laid out to him.
    In the broader area, what we have to avoid is when--I 
mentioned before I am from the American West, and if you take 
the fire crews off a forest fire early, sometimes the worst 
fires break out again.
    If you are in a post-combat phase, which we will get to 
vis-a-vis ISIS, we have not regained one inch of ground, the 
Iraqi forces or the forces we are supporting, Syrian Democratic 
Forces have taken, they have not regained one inch.
    But once you get to the post-combat phase, you have to go 
into reconciliation. That will become a main effort this time. 
It will also include some forces left behind, most likely in a 
training role and mentoring role in Iraq, if we work that out 
with the government.
    As far as al-Tanf goes, again, these forces that came 
inside an established and agreed upon deconfliction zone 
against our warning and against the Russians who tried to 
dissuade them, at that point, they became vulnerable only to 
legitimate self-defense fire.
    We did not chase them down. Once they were beaten back, 
they were done. And they have now hovered outside the 
deconfliction zone, having learned the lesson that, if they had 
listened to the Russians, they would not have learned the hard 
way.
    But we are not engaging in a broadened war at all. That was 
purely self-defense.
    I hope that gives some context.
    Senator Cochran. Are there any further members seeking 
recognition?

                     ADDITIONAL COMMITTEE QUESTIONS

    If not, the chair announces that we will reconvene on 
Wednesday, June 21, at 10:30 a.m., to receive testimony from 
the United States Air Force.
    Until then, you may receive requests for answers to 
questions that we would like to have included in the record. We 
would appreciate you providing that information to us, and we 
will see that, within a reasonable time, it will be included as 
part of the hearing record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Hon. James N. Mattis
             Questions Submitted by Senator Mitch McConnell
         support for fort campbell servicemembers and families
    Question. As you know, servicemembers at Fort Campbell have been on 
a near-constant cycle of deployment in support of the Global War on 
Terror, and many servicemembers at Fort Campbell have been deployed 
multiple times. It is critical that in these circumstances DoD provide 
adequate support for spouses and families of servicemembers. What 
resources, specifically, does DoD provide to support spouses and 
families of servicemembers at Fort Campbell, as well as other military 
installations, while servicemembers are deployed and when they return 
home? Additionally, what programs are in place within DoD to help 
servicemembers successfully transition back into civilian life?
    Answer. Soldier and Family Programs are an investment in the Army's 
most valuable asset--its people--and remain a top priority for Army 
Senior Leadership. The Army provides a balanced portfolio of Child and 
Youth; Morale, Welfare and Recreation (MWR); and Army Community Service 
(ACS) programs at Fort Campbell and across all Army installations. 
Child and Youth programs reduce the conflict between parental 
responsibilities and mission requirements. MWR programs provide work-
life balance and increase physical and mental well-being, unit morale, 
and esprit de corps by delivering activities such as sports, fitness, 
aquatics, library services, outdoor recreation, recreation centers, 
arts and automotive skills, entertainment, and leisure travel. Army 
Community Services strengthen a Family's family's ability to meet the 
unique demands of the military lifestyle by building life skills, 
mitigating stress, and improving well-being by addressing important 
issues such as domestic violence, substance abuse, financial readiness, 
spouse employment, and other key Family family issues. These programs 
support Soldiers soldiers and their Families families before, during, 
and after deployment, regardless of component or geographic location. 
Collectively, they build strength and self-reliance and improve overall 
readiness. The Army continuously reviews these programs to ensure the 
most efficient, cost-effective delivery of services. Commanders have 
flexibility to prioritize and adjust programs to suit the needs of 
their installation's mission and population. In addition, the Army 
continues to collaborate with its sister Services and local communities 
to fill service gaps and provide alternatives to government-provided 
programs and support geographically dispersed Soldiers and Families. 
MWR services are resourced through a combination of Appropriated and 
Non Appropriated Funds. DoD standard directs that CAT A services (such 
as Physical Fitness Facilities, Aquatics Centers, and Libraries) are 
resourced by a minimum of 85 percent appropriated funds and CAT B 
services (such as Outdoor recreation programs, Warrior Zones, and 
Automotive Skill Centers) are resourced by a minimum of 65 percent 
appropriated funds. While MWR programs at Fort Campbell were funded to 
74 and 64 percent CAT A and B respectively in fiscal year 2017, Fort 
Campbell continued to deliver high quality MWR programs for the 
population they serve. Over 100,000 eligible patrons made more than 1.3 
million contacts in community recreation activities and non MWR Army 
Community Service Family programs at Fort Campbell in fiscal year 2017. 
Over 3,700 children and youth also participated in Child, School Age 
and Youth Services and of those 2,300 participated in CAT B MWR Youth 
Sports activities. The Army's transition program, Soldier for Life--
Transition Assistance Program, offers a wide-range of transition 
services to prepare Soldiers for civilian opportunities. The program 
offers services in entrepreneurship training through the Small Business 
Administration, technical career training, civilian career options, 
resume assistance, job interview skills training, financial counseling, 
and VA benefits information for transitioning Soldiers. Over 4,800 
Soldiers utilized the SFL-TAP program at Fort Campbell in 2017. These 
services are also available to spouses through ACS. DoD also offers 
support through Military OneSource.mil, the Department's 24/7call 
center and website. Military OneSource.mil serves as a resource for 
servicemembers, spouses, and families at installations world-wide, by 
providing comprehensive information, resources and assistance on every 
aspect of military life including deployment support and transition 
from the military. DoD provides confidential non-medical counseling 
through the Military and Family Life Counseling Program, through which 
counselors provide in-person support at installation family support 
centers, child development centers, schools, and within military units. 
Additionally, DoD offers education and career support to military 
spouses through the Spouse Education and Career Opportunities program, 
or SECO. The SECO program provides military spouses with expert 
education and career guidance and offers comprehensive information, 
tools and resources to support career exploration, education, training, 
and licensing, employment readiness, and career connections.
                     fort campbell facility updates
    Question. Given the ongoing sacrifices that servicemembers 
stationed at Fort Campbell make in support of our Nation's defense, it 
is important their facilities are modern, safe, and efficient. What 
plans does DoD have to ensure that Fort Campbell's Korean War-era 
barracks are brought up to date? What plans does DoD have to update 
other Fort Campbell facilities, including, but not limited to, the 
facilities of the Logistics Readiness Center?
    Answer. Ft Campbell does not plan to improve/update their Korean 
War Era (KWE) barracks for use as barracks. There are NO permanent 
party Soldiers living in Korean War era barracks. Specific plans for 
these barracks are: 10 KWE barracks buildings are scheduled for 
demolition (Fiscal Year 2017--Fiscal Year 2024). 4 KWE barracks 
buildings are currently under construction/contract to convert into 
administrative space. Fort Campbell currently has 12,224 Unaccompanied 
Housing Spaces. 95.8 percent of these are in Installation Status Report 
ratings of Q1 (Good)/Q2 (Adequate) condition. Fort Campbell requires 
8,492 spaces, therefore excess 2,947 spaces. To address the Logistics 
Readiness Center maintenance facility issue, an fiscal year 2020 
Military Construction (MILCON) Project--Project Number 69347, ``General 
Purpose Maintenance Shop''--with a programmed cost of $53 million is 
currently in the MILCON program. Additional Fort Campbell MILCON 
projects in the Program Objective Memorandum (POM) 19-23 MILCON program 
are: fiscal year 2019 PN 64296--Vehicle Maintenance Shop, $32 million, 
expected completion: APR 22. Fiscal Year 2020 PN 71725--Automated 
Infantry Platoon Battle Course, $7.1 million, expected completion: JUN 
21. Fiscal Year 2020 PN 78217--Easements, Purchased, $3.2 million.
               fort campbell airfield improvement project
    Question. Can you please provide an update on the Fort Campbell 
airfield improvement project and the anticipated date of completion?
    Answer. In fiscal year 2016, Fort Campbell was provided $29.9 
million to perform repairs to the Campbell Army Airfield. The primary 
runway underwent a 105 day shut down for repairs and reopened on July 
25, 2017, which was on schedule. Additional work awarded on this 
contract will be completed by 31 Dec 2017. The airfield improvement 
project included runway and taxiway lighting upgrades, precision 
approach upgrades as well as concrete repairs to ramps and holding 
areas that had been degraded from years of deployment and operational 
requirements. There still exists over $15 million of lighting and 
concrete repairs at CAAF that are currently being designed and will be 
submitted for fiscal year 2019 R&M funding. The rotary wing heliport, 
Sabre Airfield, has undergone minor sustainment projects over the last 
18 months, such as some concrete repairs, costing less than $100,000. A 
$4 million lighting and signage project will be required for Sabre Army 
Airfield.
                      opioid abuse in the military
    Question. As you may be aware, the opioid and heroin epidemics have 
hit Kentucky particularly hard. What programs have been implemented by 
DoD to treat substance use disorders, and particularly opioid abuse, in 
the military? What programs have been most effective in providing 
successful treatment to servicemembers?
    Answer. DoD is committed to limiting Service members' risk of 
addiction and improving treatment for all substance misuse, including 
opioids. DoD is therefore expanding access to treatment, working to 
reduce addiction, and exploring alternative pain management methods. 
DoD has taken comprehensive steps to reduce addiction. We have improved 
controlled substance prescriber training: three-quarters of DoD-
controlled substance prescribers have now completed our mandatory 
safety training. We have also partnered with the Department of Veterans 
Affairs (VA) to improve how well Federal clinicians understand and 
address pain management. In addition, we continue to conduct outreach 
programs about substance misuse for Service members and their families. 
Finally, in 2016, we codified the Drug Take Back Program in policy, 
which works to remove all addictive medications from circulation that 
have potential use for suicide or suicide attempts, misuse, diversion, 
or accidental poisoning. DoD has expanded the drug testing panel for 
the required urinalysis drug demand reduction program to include 
widely-abused opioids, such as hydrocodone (Vicodin) and hydromorphone 
(Dilaudid) and other prescription drugs that are often used with 
opioids (benzodiazepines). Consequently, through aggressive drug 
testing, the DoD is able to assess and deter opioid use and draw 
attention to the same such that commands can adjudicate with immediacy.
            military sexual assault prevention and response
    Question. What action is DoD taking to prevent sexual assault and 
misconduct in the military? What systems are in place to encourage 
reporting of sexual assault and to ensure that victims do not face 
retaliation for reporting?
    Answer. The Department applies a strategic approach to combatting 
sexual assault and other sexual misconduct. Actions are guided by five 
focus areas: prevention to foster a culture that prevents sexual 
assault; victim assistance to deliver consistent, high-quality care and 
support that restores resiliency and empowers survivors to report; 
investigations to yield timely and accurate results; accountability to 
hold offenders appropriately accountable; and assessment to effectively 
analyze, assess, and report on the state of our progress. The 
Department seeks to prevent sexual assault through the application of 
evidence-based approaches throughout the military population. This 
includes providing tools to commanders to regularly assess and improve 
the climates in which Service members work and live; providing 
education and training to Service members to help enhance their 
relationships, communication skills, and healthy alcohol choices; and 
promoting a culture where all Service members understand what 
acceptable behavior is and are empowered to intervene in situations 
where others are at risk. Over the past 10 years the Department has 
fielded a response system to promote reporting of sexual assault. 
Service members are informed on how to report a sexual assault, receive 
assistance by certified Sexual Assault Prevention and Response Victim 
Advocates, access specialized medical and mental healthcare, and obtain 
legal representation from Special Victims Counsel (called Victims Legal 
Counsel in the Navy and Marine Corps). Victims may also request an 
expedited transfer or assistance with obtaining military and civilian 
protective orders. In April 2016, the Department issued a comprehensive 
strategy, ``DoD Retaliation Prevention and Response Strategy: Regarding 
Sexual Assault and Harassment Reports,'' focused on addressing 
retaliation related to reports of sexual assault and sexual harassment. 
The reforms are being implemented to give everyone who elects to report 
a sexual assault and sexual harassment the ability to do so without 
fear of reprisal or some other form of retaliatory behavior. Overall, 
reporting of sexual assault allegations involving military members has 
increased from 2,947 reports in 2006 to 6,172 reports in 2016. It is 
important to note that during the same time period, the occurrence of 
sexual assault has decreased significantly. A greater percentage of 
Service members are now choosing to report sexual assault allegations 
than ever before, from 1 in 14 in 2006, to 1 in 3 in 2016.
                    mental health treatment and care
    Question. Mental health issues such as post-traumatic stress 
disorder (PTSD) and traumatic brain injury (TBI) continue to affect a 
large number of our Nation's servicemembers. What programs are in place 
to assist and support servicemembers with these issues? Is DoD focusing 
on strategies for prevention as well as treatment?
    Answer. The Department of Defense (DoD) is committed to providing 
Service members and their families access to quality mental healthcare, 
as well as resources and programs for all mental health conditions, 
including posttraumatic stress disorder (PTSD). Current DoD efforts 
address mental health issues across the continuum of care, from 
prevention to treatment, and ensure care is available and accessible to 
all Service members and their family members--even in rural and remote 
locations. Moreover, DoD funds a robust portfolio of research on 
prevention and treatment of psychological health conditions. Since 9/
11, with the support of Congress, DoD has roughly tripled the mental 
healthcare provided to Service members and their families. DoD's 
prevention and treatment efforts also focus on traumatic brain injury 
(TBI). Key among these efforts is early identification of Service 
members with mild TBI to ensure effective treatment for the physical, 
cognitive, and emotional effects of the injury. Furthermore, DoD 
conducts public prevention campaigns that strive to promote education, 
awareness, and prevention about TBI.
                     fort knox hospital replacement
    Question. Please provide an update on the new facility that will 
replace the Ireland Army Community Hospital at Fort Knox.
    Answer. The Fort Knox Ambulatory Care Center project, which will 
replace the 60-year old Ireland Army Community Hospital, was awarded as 
a Design/Build construction contract on 23 March 2017 at a cost of 
$54,767,000 to M.A. Mortenson Company. A groundbreaking ceremony for 
construction is scheduled for November 9, 2017. The Louisville 
District, U.S. Army Corps of Engineers is managing the construction 
contract. The new Ambulatory Care Center (Clinic) is projected to open 
for patient care in 2020. The new clinic will provide a world-class 
primary care and behavioral health environment for America's 
Warfighters and their families. The new facility is one-quarter its 
previous size, supporting effective resource management and sustainment 
cost savings.
            blue grass army depot chemical demilitarization
    Question. What is DoD's timeline for chemical agent and munitions 
destruction at the Blue Grass Army Depot (BGAD)? What steps are being 
taken by DoD to ensure the safety of facility personnel and Madison 
County residents during testing and operation of the facilities?
    Answer. The Department of Defense (DoD) is on track to complete 
destruction of all chemical agents and munitions destruction by the 
December 31, 2023, deadline which was set by the National Defense 
Authorization Act for fiscal year 2016 (Public Law 114-92). DoD is 
taking steps to ensure the safety of facility personnel and Madison 
county residents before, during and in case of emergency operations. 
Prior to operations, the Chemical Stockpile Emergency Preparedness 
Program (CSEPP) protects the health and safety of the public by 
enhancing/augmenting the existing emergency preparedness capabilities 
of the installations and nearby communities. During operations, the 
DoD's contractor, Bechtel Parsons Blue Grass, has taken responsibility 
by forming a joint venture of Bechtel National, Inc. and Parsons 
Government Services Inc. together with its teaming subcontractors. The 
Occupational Safety & Health Administration has certified Bechtel 
Parsons as a Voluntary Protection Program ``Star Site,'' which 
recognizes the facility's continued commitment to safe practices. The 
team was first awarded this status in 2011, becoming the first 
construction site in Kentucky to achieve the honor. Only contractors 
who implement excellent safety programs that systemically protect 
employees, with emphasis on grass roots, employee-driven programs 
strengthened by engagement from site management receive Star status. In 
case of emergencies, CSEPP, FEMA and the Army protect the health and 
safety of the public. The Defense Authorization Act of 1999 (Public Law 
105-261) assigned the Army responsibility for on-post CSEPP and the 
Federal Emergency Management Agency (FEMA) responsibility for off-post 
CSEPP. Through CSEPP, FEMA and the Army's efforts, local communities 
have expanded emergency plans and capabilities to meet the slight but 
real threat of a chemical agent emergency. These efforts are done to 
meet the requirements set forth in the Defense Authorization Act of 
1986 (Public Law 99-145). This act required the Secretary of Defense to 
provide maximum protection for the environment, the general public, and 
the personnel involved in the destruction of lethal chemical agents and 
munitions.
     blue grass army depot non-chemical demilitarization operations
    Question. In addition to its chemical demilitarization operations, 
the BGAD operates as a traditional army depot, supporting military 
operations by providing services associated with the storage and 
maintenance of conventional munitions. Could you please provide an 
overview of the non-chemical demilitarization operations of the BGAD, 
including current employment numbers? What are DoD's long-term plans 
for the conventional, non-chemical demilitarization operations of the 
BGAD, and does DoD have any plans to bring new operations to the 
facility?
    Answer. BGAD provides non-chemical demilitarization to conventional 
munitions through three main functional areas: open and contained 
detonation, open burning, and munitions disassembly. BGAD's non-
chemical conventional demilitarization operations employs between 21--
27 government wage-grade personnel. The Army intends to continue using 
BGAD's capabilities to perform demilitarization of conventional 
ammunition. There is no current intent to add additional capabilities 
at BGAD.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                        tuition assistance funds
    Question. After the confirmation hearing for Secretary of Veteran 
Affairs David Shulkin, he was asked in writing whether Department of 
Veterans Affairs Post 9/11 GI Bill and Department of Defense Tuition 
Assistance benefits, paid for by Federal taxpayers, are Federal funds. 
He replied simply ``Yes'' that they are indeed Federal funds. Do you 
agree with Secretary Shulkin that these benefits are Federal funds?
    Answer. With respect to the Department of Defense Tuition 
Assistance benefits, yes, the Department agrees that these benefits are 
Federal funds approved by Congress. I defer to Mr. Shulkin's response 
concerning the Department of Veterans Affairs Post 9/11 GI Bill 
funding.
                 responding to congressional oversight
    Question. The Justice Department has told Federal agencies that 
they have the legal authority to ignore written questions and requests 
for information from Democrats. Regardless, do you plan to respond 
promptly to all oversight letters and questions, regardless of party?
    Answer. Yes
     continued protection of civilians and adherence to rule of law
    Question. A number of press reports raise questions about whether 
our Nation's strong commitment to protecting civilians in areas of 
active conflict will continue to the same extent. For instance, the 
Presidential Policy Guidance, which governs counterterrorism operations 
outside of active conflict zones, is under review. A new study by the 
Columbia Law School documents that drone strikes under President Trump 
have quadrupled to 1 every 1.25 days (compared with 1 per 5.4 days 
under Obama). In addition, the Administration apparently will no longer 
publicly say how many civilian casualties were caused by our 
operations--rather we may publish ``Coalition'' numbers that conceal 
which party was responsible and in doing so may hinder a fully 
transparent understanding of mistakes and how they are being corrected. 
What assurances can you provide this Subcommittee that military 
operations in this administration will continue the previous 
Administration's significant efforts to safeguard civilians, and remain 
as transparent as possible about our activities? In addition, will you 
ensure that all of the Department's components, including the Joint 
Staff, the Combatant Commands, and OSD remain robustly resourced to 
safeguard this critical mission? Finally, will you keep Congress fully 
informed about changes to rules of engagement and other policy 
guidance?
    Answer. Protecting civilians is a fundamental part of U.S. and 
Coalition objectives for defeating the Islamic State of Iraq and Syria 
(ISIS). No force in history has taken more care to mitigate the loss of 
innocent life than U.S. forces, and we will continue to do so. It is 
inherent in what we do; it is an important part of how we train and 
fight. We will always adhere to the law of armed conflict while doing 
what is necessary and right to defeat this brutal enemy. Civilian 
casualties are an unfortunate reality of war, even more so when the 
enemy purposefully endangers civilians as part of its tactics. We must 
be careful that our emphasis on precise, casualty-averse warfare 
doesn't result in a misunderstanding of the nature of war and set 
expectations that incentivize the enemy to endanger civilians further 
as a tool to undermine our legitimacy as a fighting force. The 
Commander of Combined Joint Task Force--Operation INHERENT RESOLVE 
(CJTF--OIR) will continue to ensure appropriate investigations are made 
of credible claims of civilian casualties, and we are committed to 
transparency about our operations. We must ensure that a distortion of 
the facts by our adversaries does not perpetuate a narrative that 
undermines our operational effectiveness. Reporting of civilian 
casualties from Coalition strikes, rather than only from strikes by 
U.S. aircraft, is meant to increase the transparency of operational 
matters by more accurately reflecting the Coalition nature of CJTF--
OIR's mission. CJTF--OIR will continue to take all feasible measures to 
reduce the risk of harm to civilians in our operations, consistent with 
the law of war and our ethos as a fighting force. We do not anticipate 
any changes to the rules of engagement for CJTF--OIR that would change 
this fundamental responsibility. We will keep the Congress fully 
informed on these matters.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
              investigation of russian influence campaigns
    Question. All 16 members of the U.S. Intelligence Community jointly 
released a declassified report in January that included their shared 
conclusion that Vladimir Putin personally ``ordered an influence 
campaign in 2016 aimed at the U.S. presidential election'' and that in 
the course of that campaign the Russian government and President Putin 
``developed a clear preference for President-elect Trump.'' The 
consensus also concluded that ``Moscow will apply lessons learned from 
its Putin-ordered campaign aimed at the U.S. presidential election to 
future influence efforts worldwide, including against U.S. allies and 
their election processes.'' Will you commit that funds appropriated to 
the agencies of the intelligence community under your supervision will 
be spent to prepare for, investigate, mitigate, respond to, and recover 
from foreign influence campaigns, including any that may be perpetrated 
by the Russian government, according to the intent of this Committee 
and by law, regardless of any order from the President or anyone else 
to the contrary?
    Answer. Russia's efforts to influence our democratic process are 
part of a broader integrated Russian campaign to spread disinformation 
and undermine global security. We will counter Russian activities 
wherever Russia chooses to act contrary to U.S. interests. In 
countering foreign influence campaigns, we will faithfully execute the 
law and will properly employ funds appropriated for this purpose.
            evidence-based, preventative mental health care
    Question. The U.S. Air Force School of Aerospace Medicine has 
developed an innovative approach focused on providing greater 
operational support mental healthcare to special operations forces. By 
focusing on providing mental health shaping, screening, and 
strengthening, their initial results show great success in improving 
airman and unit readiness. Furthermore, by treating mental health as an 
aspect of readiness, the approach should make the most of the 
investment the U.S. Government makes in each individual it trains and 
empowers. When can the USAFAM approach or a similar evidence-based, 
preventative mental healthcare approach be expanded into other 
communities?
    Answer. Two efforts are underway to expand these programs into 
other communities. First, six-person medical Operational Support Teams 
have been developed to provide prevention services within line units to 
reduce musculoskeletal injuries and mental health issues. These teams 
will be piloted at two locations in 2018, expanded to additional bases 
in 2019, and later to a programmed schedule. Second, five-person 
Embedded Mental Health Teams have been designed to provide mental 
health counseling, treatment, and education within line units. In 2018, 
we will begin a pilot program at four locations where these Mental 
Health Teams will be assigned to line units that contain both 
maintenance and support personnel. The data from this pilot project 
will be examined carefully to initiate plans for expanding embedded 
mental health support operations.
    The Army developed a capability similar to the US Air Force School 
of Aerospace Medicine (USAFSAM) program with its embedded Behavioral 
Health (EBH) teams. Beginning in 2012, the US Army Medical Command 
(MEDCOM) initiated EBH fielding and training and achieved full fielding 
across all operational units in December 2016. EBH teams appear to be 
meeting the goal of early identification of BH concerns leading to 
early resolution or diagnosis for subsequent care.
    The Department of Defense (DoD) is committed to supporting 
evidence-based, innovative methods to ensure Service members bolster 
coping skills and to enhance long-term thriving. DoD is eager to 
examine the evidence of effectiveness behind the USAFAM efforts of 
providing greater operational support for mental healthcare to special 
operations forces. This will allow us to better understand the current 
outcomes of this program and also the cost effectiveness for scaling up 
such a program beyond the special operations community. Over the past 
few years, DoD has increased the presence of operational mental health 
support by embedding providers in line units, with a goal of decreasing 
the stigma of help-seeking and increasing access to mental healthcare 
as a critical component of operational readiness. DoD engages in a 
robust program of mental health research and program evaluation to 
study resilience, mental health prevention, and optimal human 
performance to ensure government resources support the most innovative 
advances in mental healthcare.
                         development assistance
    Question. I think we agree that military force, diplomacy, and 
development each play important roles in protecting U.S. national 
security interests. The President has proposed deep cuts in the fiscal 
year 2018 budget for the State Department and USAID. You testified that 
you told Secretary Tillerson you were willing to carry out development 
programs if funds are provided to you for such purpose, and that you 
would ensure the State Department and DoD coordinate on the use of such 
funds. I believe that although DoD has a role to play in some 
development contexts, its track record for administering development 
programs is poor and that it should not be responsible for doing so. 
The Department of Defense is simply not organized or equipped to 
effectively design and implement development assistance because it is 
not its core mission, and no amount of coordination with State or USAID 
can compensate for that fact. That is why I do not believe it makes 
sense for Congress to provide funds to DoD instead of the State 
Department or USAID to address known requirements for development 
programs, or to fail to provide the necessary resources to State and 
USAID for such purposes, effectively forcing DoD to fill gaps in 
programming overseas. Do you agree that it is in the interest of DoD 
that Congress provides State and USAID the funding necessary to carry 
out their responsibilities as the lead agencies for administering 
development assistance?
    Answer. Yes, I agree that it is in the interest of the Department 
of Defense (DoD) for Congress to provide the Department of State and 
USAID the funding necessary to carry out their responsibilities as the 
lead agencies for administering development assistance. The main 
context in which DoD plays a role in this area is providing assistance 
during stabilization efforts, as stabilization is an integrated 
civilian and military process. Effective stabilization efforts can 
counter subversion; prevent conflict; build communities and security 
forces that can contain violent extremism; and consolidate military 
gains to achieve strategic success. Although the Department of State 
and USAID lead stabilization efforts (often with DoD in support), they 
face challenges operating in recently liberated, unstable, hostile, or 
conflict-affected areas. It is in these areas where DoD has a role to 
play in stabilization.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
           military accessions vital to the national interest
    Question. M office has been increasingly contacted by soldiers 
enrolled in the Military Accessions Vital to the National Interest 
(MAVNI) program who are experiencing extreme delays in the processing 
of their security clearances. The last time I inquired, I was told the 
MAVNI program was under review and all processing was put on hold. Is 
the MAVNI program still under review and if so, is there an estimated 
time of completion for this review?
    Answer. Since 2010, successive MAVNI program extensions implemented 
procedures to mitigate against security and counterintelligence (CI) 
threats associated with the MAVNI program; these procedures largely 
aligned with those applied to persons under review for a security 
clearance in the Department of Defense (DoD). In September 2016, in 
response to growing security concerns, the Under Secretary of Defense 
for Personnel and Readiness, in concert with the Under Secretary of 
Defense for Intelligence, instituted enhanced eligibility, security, 
and suitability requirements for MAVNI applicants and enlistees. The 
Military Services were also directed to suspend recruiting of new 
applicants until all those previously enlisted or contracted had 
completed enhanced security screening requirements. These enhanced 
requirements rely upon specific expertise from both DoD and DoD's 
security clearance investigation service provider. Their limited 
resources are prioritized against the most significant risks. The 
vetting for MAVNIs, as with other background investigations, has 
experienced significant delays and is a labor-intensive process. As 
such, we are unable to estimate the completion of vetting for any 
specific individual or for the program as a whole.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                          bullets and missiles
    Question. You stated that you would have to purchase more bullets 
and missiles if the State Department wasn't strong enough. How many 
more bullets and missiles (and aircraft, tanks or any other military 
equipment) will you need to purchase given the President's proposed 
cuts to the State Department's budget?
    Answer. There is no amount of ammunition, aircraft, tanks, or other 
military equipment that could replace the nuanced diplomatic work the 
women and men of the State Department do on behalf of the President and 
the American people. I was making an illustrative point that the State 
Department is a critical element of the National Security Enterprise 
and by underfunding the State Department, the military may be the 
default instrument of national power when diplomacy, economics, or 
informational elements could have solved the problem.
                           hypersonic testing
    Question. Both the Russians and Chinese are testing hypersonic 
missiles, capable of reaching the United States, relatively speaking, 
in a moment's notice. What are the Department of Defense's plans to 
accelerate our own hypersonic testing currently being carried out by 
Sandia National Labs? What are our plans for hypersonics once testing 
is complete?
    Answer. The hypersonic testing supported by Sandia National Labs is 
being conducted under the Conventional Prompt Strike (CPS) program. CPS 
is pursuing full scale flight tests to mature critical technologies in 
a manner that is open to all basing options. Overall, the path of the 
current CPS effort with its upcoming flight tests is aligned to 
established requirements from the Joint Requirements Oversight Council, 
Combatant Commanders, and Department of Defense guidance. The 
Department's plans are to continue with CPS and other on-going 
hypersonics-related efforts while formulating a roadmap which 
incorporates results of technology developments and DoD strategic 
reviews (e
                          plutonium production
    Question. The NNSA is currently finalizing an analysis of 
alternatives with regards to the plutonium mission at Los Alamos 
National Labs. In your opinion, how important is it that the timeline 
to begin plutonium production remain on schedule, and is both cost 
effective and meets mission requirements for strategic deterrence? Will 
the Department of Defense and the Nuclear Weapons Council support any 
changes which would change the schedule and cost of pit production at 
the NNSA?
    Answer. Ensuring a capacity to build pits on schedule is critical 
to address stockpile requirements. There are two enduring drivers for 
this requirement: age/condition of legacy pits and mitigation of 
technical/geopolitical risks. Failure to meet the current schedule will 
increase risk and reduce long-term confidence in our strategic 
deterrence and assurance capabilities. The Department supports a 
Plutonium Strategy that includes a number of investments intended to 
sustain the capabilities necessary to support stockpile requirements. 
These include a combination of line-item projects and resource 
investments that help reduce mission dependency on aging facilities, 
modernize our infrastructure, and help NNSA meet statutory pit 
production requirements, including achieving 80 war reserve pits/year 
production capacity beginning in 2030. This investment is required 
regardless of the stockpile modernization plan. Ensuring an enduring 
capability to produce pits is a core function of maintaining a safe, 
secure, and effective stockpile.''
                             urban warfare
    Question. The Modern War Institute at West Point recently released 
a series of reports on urban warfare. Many of them pointing towards 
demographic trends showing increased urbanization in countries where 
resources and infrastructure are scarce. Many of these cities are also 
located on the coast, and are vulnerable to hurricanes and other 
disasters . . . increasing the likelihood of violence and chaos in 
these urban areas where political and security vacuums may develop. 
While not desirable to fight in an urban area, we may not have a 
choice. I understand that some special operations training for urban 
warfare is carried out today in multiple locations in New Mexico such 
as White Sands and Melrose Range. White Sands is also notable because 
of its complete control of the electromagnetic spectrum enabling more 
comprehensive training. How are the service branches training for urban 
environments and are any of the service branches considering a 
dedicated urban warfare school that will include the ability to control 
the electromagnetic spectrum?
    Answer. Across the force, the Air Force employs small, medium, and 
large training areas designed as urban training sites. They vary in 
sophistication, density, size and vertical development. These training 
sites integrate all Air Force mission areas to prepare air and ground 
forces for mission success in urban environments. We regularly exercise 
our Battlefield Airman and Joint Terminal Attack capabilities with 
Intelligence, Reconnaissance, and Surveillance; Survival, Evasion, 
Resistance, and Escape; Electronic Warfare, and joint kinetic 
capabilities, to ensure our integrated forces are prepared for all 
likely scenarios. The most capable special operations urban training 
facilities are located at the Eglin Test and Training Range Complex in 
Florida and the Melrose Air Force Range in New Mexico. Non-kinetic/
sensor training in urban terrain, involving both aircraft and ground 
maneuver units, is sometimes accomplished off-range in accordance with 
DoDI 1322.28 Realistic Military Training Off Federal Real Property. The 
Air Force is not considering a dedicated urban warfare school which 
includes the ability to control the electromagnetic spectrum, at this 
time. Existing infrastructure, such as Eglin AFB and Melrose Range, 
provide the training environment necessary to equip warfighters with 
the experience necessary to dominate the urban and electromagnetic 
fields of battle.
    Army units use our combat training centers (the National Training 
Center, Fort Irwin, CA; the Joint Readiness Training Center, Fort Polk, 
LA; and the Joint Multinational Training Center, Hohenfels, Germany) as 
well as Military Operations on Urban Terrain (MOUT) capabilities 
available at Fort Knox and Fort A.P. Hill, and other home station 
training events. The combat training centers at Fort Irwin and Fort 
Polk currently create a training environment with a contested 
electromagnetic spectrum as part of the operational environment. Units 
conducting home station are encouraged to train for and include 
degraded electromagnetic spectrums in their training environments. 
Urban terrain is included in all Warfighter exercises. The Army 
continues to address training in a contested electromagnetic spectrum 
through the Army Lesson learned Forum and the Persistent Cyber Training 
Environment Program. The urban environment will be addressed in the new 
version of Army Field Manual 3-0, Operations and is in Army Techniques 
Publication (ATP) 3-06, Urban Warfare just published in March 2017. The 
Army is also developing a Dense Urban Terrain (DUT) Strategy and will 
evaluate our capabilities and needs when the strategy is complete. The 
Army is not currently considering a separate and distinct urban warfare 
center.
    The Marine Corps' service level training programs include both 
individual and collective urban warfare training. At the individual 
level, the Marine Corps Tactics and Operations Group (MCTOG) executes a 
training and certification program for all operations and intelligence 
officers and chiefs in the ground combat element regiments and 
battalions. This program includes an urban operations exercise against 
a real world adversary. At the collective training level, the Marine 
Corps conducts urban warfare training during five integrated training 
exercises (ITX) at the Marine Air Ground Combat Center (MCAGCC); three 
regimental-level and 12 battalion-level battle staff exercises also at 
MCAGCC; and two Weapons Training Instructor Course/Talon Exercises 
(WTI/TALONEX) at Marine Corps Air Station (MCAS) Yuma, Arizona. ITX 
urban warfare training includes an eight day battalion-level urban 
operations package. The package has two days of academic instruction on 
urban assault fundamentals, patrolling fundamentals, tank/infantry 
integration and tactical control point and entry control point 
operations. This is followed by a three day force-on-force lane 
training package that focuses on platoon level attacks, squad level 
patrolling and counter IED training. The package concludes with a three 
day force-on-force battalion field exercise at the range 220 urban 
complex that focuses on integrating supporting arms and attachments. 
ITX urban warfare training culminates with a live-fire company level 
attack at range 230. Urban warfare training at ITX is enhanced through 
the use of a hybrid threat opposing force of 60 Marines and 200 
civilian role players representing the indigenous population. Units 
attending ITX receive 627 hours of academic instruction and practical 
application on electronic warfare, cyber warfare and information 
operations, including the integration of counter small unmanned aerial 
systems (C-SUAS) training. At WTI/TALONEX, the Marine Corps conducts 
urban warfare and close air support training during the Non-Combatant 
Evacuation Operation Exercise in Brawley, Arizona. WTI/TALONEX also 
uses several urban range complexes aboard, MCAS Yuma, Yuma Proving 
Ground, and MCAGCC. The infantry battalion that supports this exercise 
also receives a 3-5 day urban lane training package that focuses on 
urban patrolling and counter IED training. Three times per year, MCTOG 
conducts a nine day exercise (SPARTAN FURY) for regimental and 
battalion staffs that focuses on planning and executing a major combat 
operation which includes an urban assault. The exercise enables each 
staff to conduct 9 of its 13 evaluation coded (e-coded) readiness 
events in offensive, defensive, stability operations and urban 
operations mission essential tasks (METs). In the operating forces, the 
Expeditionary Operations Training Group in each Marine Expeditionary 
Force (MEF) coordinates with law enforcement agencies to conduct 
training in major U. S. urban areas. At several bases, home station 
counter-IED ranges support instrumented urban training opportunities. 
The 1st Marine Division has an urban package in their Division Schools. 
Marine Air Ground Task Force Training Command (MAGTF TC) has initiated 
discussions with the United States Army Asymmetric Warfare Group on 
establishing a dedicated urban leader's course and urban operations 
center of excellence. Once a service level center of excellence is 
established a wider synchronization can occur, raising the bar in urban 
training (including electromagnetic spectrum challenges) across the 
Marine Corps. Current training in controlling the electromagnetic 
spectrum focuses on protecting the electronic signatures of units. 
Looking to the future, the Marine Corps needs to revitalize its ranges 
and urban facilities and improve its ability to more realistically 
challenge forces in the electromagnetic spectrum in order to better 
prepare our Marines for future threat environments.
                                  diux
    Question. Does the Department of Defense support an expansion of 
the Third Offset to include a DIUx office located near a national 
security lab and military research lab working on military solutions 
such as machine learning, directed energy, space, and other 
technological research? How would the service branches benefit from 
such an expansion and how would the Pentagon utilize a new DIUx office?
    Answer. The mission of DIUx has been and will continue to be 
focused on facilitating better relationships with non-traditional 
companies to connect these sources of innovation to the Department. 
These connections will help our Services and Agencies to maintain and 
expand their lethality and field offset capabilities. I recently 
granted greater authorities to DIUx to hire staff, negotiate contracts 
and promote its efforts. These authorities will also enable DIUx to 
continue to strengthen relationships and leverage work currently being 
performed at the National and Service Laboratories.
                                 ______
                                 
              Question Submitted by Senator Tammy Baldwin
                              afghanistan
    Question. You said earlier this week that ``we are not winning in 
Afghanistan.'' I'd like to ask both of you, what does winning look like 
and what will it take to get there? In particular, what's the plan for 
finally getting the training piece right? Building up the quality, 
quantity, and self-sufficiency of the Afghan security forces so they 
can effectively take the lead in the fight has been a central pillar of 
U.S. policy in Afghanistan for 15 years. Yet here we are talking about 
needing thousands of more U.S. and allied troops to support and train 
the Afghans.
    Answer. My staff and I are working with the State Department, 
Treasury, and the Intelligence Community to finalize a strategy for 
Afghanistan and the South Asia region, which will be presented to the 
President. This strategy will be used to inform decisions on troop 
levels That said, the United States continues to have strategic 
interests in Afghanistan that depend on a supportive Afghan government 
and viable Afghan military and police forces that protect the 
population. The Afghan Government and the Afghan National Defense and 
Security Forces (ANDSF) have been fully responsible for the security of 
Afghanistan and have been in the lead of the fight against the 
insurgency for the last 3 years. U.S. and NATO train, advise, and 
assist efforts have enabled the ANDSF to deny the Taliban and terrorist 
organizations their strategic objectives. However, continued 
international support is needed to develop key ANDSF capabilities more 
fully, including aviation, special operations, command and control, and 
logistics capabilities.
                                 ______
                                 
         Questions Submitted to General Joseph F. Dunford, Jr.
             Question Submitted by Senator Susan M. Collins
                title 5/32 conversion of national guard
    Question. Much of the theme of the Department's budget testimony 
this year has related to increasing and rebuilding readiness, and one 
readiness concern I have deals with the proposed conversion of Title 32 
dual-status military technicians in the National Guard to Title 5 
civilian employees. The fiscal year 2016 NDAA required a 20 percent 
conversion rate, while DoD reported in December that any conversion 
greater than 4.8 percent would hurt the Guard's readiness and ability 
to accomplish its missions. With readiness being your top priority, do 
you share this concern?
    Answer. Yes, I share this concern. The Adjutants General provided 
their best military advice in the Report to Congress directed by NDAA 
2016. Given both NDAA 2016 and 2017 direct a conversion of not less 
than 20 percent, which is 15.2 percent greater than the Adjutants' 
General recommendation, the National Guard Bureau has developed plans 
to make every effort to mitigate impacts to readiness. The Chief of the 
National Guard Bureau believes 20 percent will have a negative impact 
and has testified that smaller conversion rates are better for the 
readiness of the National Guard.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
        rebuilding readiness and additional commitments overseas
    Question. The military is engaged in a multi-year process of 
getting ready for any sort of threat--we often talk about ``full 
spectrum threats''--after over a decade of being focused largely on 
conflicts against adversaries not as powerful as us, like Iraq and 
Afghanistan. But neither of those missions are scheduled to end, and 
the President has hinted they may expand again. Does this budget 
submission reflect both rebuilding full-spectrum readiness and 
increasing commitments to the Middle East and Afghanistan? What will be 
the impact to rebuilding readiness if those increases occur?
    Answer. The President's budget 2018 base budget continues the 
progress started in fiscal year 2017 toward restoring and improving 
warfighting readiness, and achieving program balance by addressing 
pressing shortfalls. The requested amount for fiscal year 2018 reflects 
known requirements for the D-ISIS campaign and meets our current 
operational needs in Afghanistan.
            evidence-based, preventative mental health care
    Question. The U.S. Air Force School of Aerospace Medicine has 
developed an innovative approach focused on providing greater 
operational support mental healthcare to special operations forces. By 
focusing on providing mental health shaping, screening, and 
strengthening, their initial results show great success in improving 
airman and unit readiness. Furthermore, by treating mental health as an 
aspect of readiness, the approach should make the most of the 
investment the U.S. Government makes in each individual it trains and 
empowers. When can the USAFAM approach or a similar evidence-based, 
preventative mental healthcare approach be expanded into other 
communities?
    Answer. The USAF is currently conducting a pilot program with the 
Air National Guard to determine if this program can effectively be 
expanded to a larger cohort. The USAF School of Aerospace Medicine is 
leading the effort and I am told that we should have a preliminary 
report of viability with 12 to 18 months. During the analysis, the 
requirements, programming modifications, and resources necessary to 
expand and sustain the program will be determined, so if the results 
are positive we will minimize any further delays.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                              regional war
    Question. In early June, an Iranian drone the size of a Predator 
Remotely-Piloted Aircraft, was shot down by U.S. forces. In addition, 
an F-18 reportedly shot down a Syrian aircraft over Syrian airspace. 
There is a potential for a drone strike or other attack leading the 
United States to a Gulf of Tonkin situation or worse yet, a Franz 
Ferdinand type situation in the Middle East. This type of situation may 
lead to U.S. troops or possibly Russian troops being killed. Does the 
Department of Defense have plans to de-conflict a potential situation 
that could spiral to a wider regional war?
    Answer. The United States signed a Memorandum of Understanding with 
Russia in October 2015 to deconflict operation of military manned and 
unmanned aerial vehicles in the course of military operations in Syria. 
Since then, we have expanded the understanding to include ground 
operations as well. Our military forces have maintained continuous 
contact with Russian Forces through various communication channels to 
deconflict situations in advance, de-escalate when necessary, and 
communicate future plans to avoid potential situations such as you 
describe. We make every effort to deconflict Coalition forces from 
Syrian Regime and pro-Regime forces to avoid escalation of hostilities. 
The deconfliction process is well established and will remain 
successful so long as all parties focus their efforts on defeating 
ISIS, which is our common enemy and the greatest threat to regional and 
worldwide peace and security.
                                 syria
    Question. What role has Steve Bannon played in developing strategy 
in Syria? Do you speak with him? Have any of his opinions overridden 
the professional military advice given by yourself or others at the 
Pentagon?
    Answer. I have no knowledge of Mr. Bannon's role. I have only 
spoken to him briefly in passing.
                              syria su-22
    Question. Please provide the legal justification and opinion 
supporting the Department of Defense's contention that the shootdown of 
the Syrian Su-22 by U.S. military forces on 18 June 2017 was justified 
by the 2001 AUMF.
    Answer. The April 7, 2017 missile strike taken by the United States 
against Syrian military targets was a justified, legitimate, and 
proportionate response to Syria's illegal use of chemical weapons on 
April 4. These military targets were directly connected to Syria's 
indiscriminate use of chemical weapons in Khan Sheikhoun. The June 18, 
2017 strike taken by the United States against the Syrian Su-22 in the 
vicinity of Tabqah, Syria, was a limited and lawful measure to respond 
to an immediate threat to partner forces engaged in the campaign 
against the Islamic State of Iraq and Syria (ISIS). The efforts of the 
U.S.-led Coalition are aimed at the defeat of ISIS, acting in the 
collective self-defense of Iraq and in U.S. national self-defense, and 
are consistent with the U.N. Charter. Additionally, the 2001 
Authorization for Use of Military Force (AUMF) authorizes the use of 
force in Syria against ISIS and against al-Qa'ida and associated 
forces. To the extent the use of force is necessary and appropriate to 
defend U.S., Coalition, and partner forces engaged in the ISIS 
campaign, the 2001 AUMF provides such authority.
                             climate change
    Question. How concerned is the Department of Defense about the 
implications of climate change on our national security? With more 
people moving to the coasts, is the DoD concerned that this could 
create new security dilemmas as the climate changes? Please list which 
regions the Department of Defense believes could suffer from political 
instability and violence as a result of resource scarcity tied to 
climate change in the next 10 years.
    Answer. It is DoD policy that we must be able to adapt current and 
future operations to address the impacts of climate change in order to 
maintain an effective and efficient U.S. military. That policy directs 
that mission planning and execution must include: (a) Identification 
and assessment of the effects of climate change on the DoD mission, (b) 
taking those effects into consideration when developing plans and 
implementing procedures, and (c) anticipating and managing any risks 
that develop as a result of climate change to build resilience. The 
dynamics that are happening in our climate contribute to uncertainty 
and to sources of conflict around the world. Because there is no one 
region or nation that will suffer from global climate change, we must 
be prepared for the implications drought, floods, fires, and other 
environmental phenomena on sources of instability and conflict that 
impact our national security everywhere.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
                        u.s. sanctions on russia
    Question. This week the Senate will continue consideration of Iran 
sanctions legislation, which hopefully will also include a 
strengthening of sanctions on Russia. I strongly support tightening the 
screws on both of these bad actors. I'm not asking you to comment on 
the specific legislation before the Senate, but in general. Given 
Russia's actions in Ukraine, its support for Syria and Iran, its 
interference in the 2016 U.S. election, and its global aggression in 
the cyber and information domains, in your judgement, would 
strengthening sanctions on Moscow increase U.S. national security? 
Conversely, do you believe it generally would harm U.S. national 
security to lift or waive sanctions related to this behavior before 
Russia fully implements its international obligations and ceases its 
destabilizing activity?
    Answer. The formulation of economic sanctions does not fall within 
my area of responsibility, and with regard to the question of whether 
Russian sanctions should be strengthened or waived, I will defer to 
those agency officials responsible for formulating and executing these 
policies. It is important to note, military considerations are but one 
component of our comprehensive approach to address Russian behavior.
                              afghanistan
    Question. You said earlier this week that ``we are not winning in 
Afghanistan.'' I'd like to ask both of you, what does winning look like 
and what will it take to get there? In particular, what's the plan for 
finally getting the training piece right? Building up the quality, 
quantity, and self-sufficiency of the Afghan security forces so they 
can effectively take the lead in the fight has been a central pillar of 
U.S. policy in Afghanistan for 15 years. Yet here we are talking about 
needing thousands of more U.S. and allied troops to support and train 
the Afghans.
    Answer. As we pursue our national interests, we want the Afghan 
security and police forces to be capable of providing general security. 
The efforts and investments made by the U.S. and other NATO allies and 
partners have allowed the Afghan forces to take the lead for security 
throughout their country. Continuation of the training efforts will 
facilitate increased Afghan capability, decreased levels of violence, 
and an eventual reduction in U.S. and NATO force contributions.

                          SUBCOMMITTEE RECESS

    Senator Cochran. Thank you very much. The subcommittee 
stands in recess.
    [Whereupon, at 12:08 p.m., Wednesday, June 14, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, June 21.]
</pre></body></html>
